<html>
<title> - GETTING READY FOR THE 2006 HURRICANE SEASON</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
              GETTING READY FOR THE 2006 HURRICANE SEASON

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2006

                               __________

                           Serial No. 109-157

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

28-573 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001

















                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel






















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 24, 2006.....................................     1
Statement of:
    Donahue, Maura W., Chair, U.S. Chamber of Commerce; Joe 
      Becker, senior vice president, preparedness and response, 
      American Red Cross; and Patricia McGinnis, president and 
      chief executive officer, the Council for Excellence in 
      Government.................................................   161
        Becker, Joe..............................................   184
        Donahue, Maura W.........................................   161
        McGinnis, Patricia.......................................   211
    Foresman, George W., UnderSecretary for Preparedness, U.S. 
      Department of Homeland Security; Robert Shea, Acting 
      Director of Operations, Federal Emergency Management 
      Agency, U.S. Department of Homeland Security; Major General 
      Terry L. Scherling, Director of the Joint Staff, National 
      Guard Bureau; Rear Admiral W. Craig Vanderwagen, M.D., 
      Special Assistant to the Secretary, U.S. Department of 
      Health and Human Services; Robert R. Latham, Legislative 
      Committee Chair, National Emergency Management Association, 
      and director, Mississippi State Emergency Management 
      Agency; and Walter S. Dickerson, Director, Mobile County 
      Emergency Management Agency/Homeland Security..............    22
        Dickerson, Walter S......................................   126
        Foresman, George W.......................................    22
        Latham, Robert R.........................................   114
        Scherling, Terry L.......................................    88
        Shea, Robert.............................................    66
        Vanderwagen, W. Craig....................................   101
Letters, statements, etc., submitted for the record by:
    Becker, Joe, senior vice president, preparedness and 
      response, American Red Cross, prepared statement of........   187
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................   141
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   236
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia:
        Prepared statement of....................................     4
        Prepared statement of Max Mayfield.......................    11
        Prepared statement of Voices for America's Children......    18
    Dickerson, Walter S., Director, Mobile County Emergency 
      Management Agency/Homeland Security, prepared statement of.   128
    Donahue, Maura W., Chair, U.S. Chamber of Commerce, prepared 
      statement of...............................................   165
    Foresman, George W., UnderSecretary for Preparedness, U.S. 
      Department of Homeland Security, prepared statement of.....    26
    Latham, Robert R., Legislative Committee Chair, National 
      Emergency Management Association, and Director, Mississippi 
      State Emergency Management Agency, prepared statement of...   117
    McGinnis, Patricia, president and chief executive officer, 
      the Council for Excellence in Government , prepared 
      statement of...............................................   215
    Scherling, Major General Terry L., Director of the Joint 
      Staff, National Guard Bureau, prepared statement of........    89
    Shea, Robert, Acting Director of Operations, Federal 
      Emergency Management Agency, U.S. Department of Homeland 
      Security, prepared statement of............................    69
    Vanderwagen, Rear Admiral W. Craig, M.D., Special Assistant 
      to the Secretary, U.S. Department of Health and Human 
      Services, prepared statement of............................   103
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................   157
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     7






















              GETTING READY FOR THE 2006 HURRICANE SEASON

                              ----------                              


                        WEDNESDAY, MAY 24, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:06 p.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis, Shays, Ros-Lehtinen, 
Platts, Duncan, Schmidt, Waxman, Cummings, Kucinich, Clay, 
Watson, Ruppersberger, and Norton.
    Also present: Representatives Taylor and Melancon.
    Staff present: David Marin, staff director; Larry Halloran, 
deputy staff director; Keith Ausbrook, chief counsel; Ellen 
Brown, legislative director and senior policy counsel; Patrick 
Lyden, parliamentarian; Anne Marie Turner, John Hunter, and 
Steve Castor, counsels; Rob White, communications director; 
Andrea LeBlanc, deputy director of communications; Grace 
Washbourne, Susie Schulte, and Wimberly Fair, professional 
staff members; Teresa Austin, chief clerk; Sarah D'Orsie, 
deputy clerk; Leneal Scott, computer systems manager; Karen 
Lightfoot, minority communications director/senior policy 
advisor; Michael McCarthy, minority counsel; Earley Green, 
minority chief clerk; and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. The committee will come to order.
    A wise man observed, ``The time to repair the roof is when 
the sun is shining.'' Today we ask what has been done to repair 
and strengthen our leaky national roof in the 9 months since 
the sun broke through the dark clouds of Hurricane Katrina.
    The 2006 hurricane season begins 1 week from tomorrow, and 
the National Oceanic and Atmospheric Administration [NOAA] 
predicts another very active period in the Atlantic basin. NOAA 
forecasts up to 16 tropical storms, 10 of which could become 
hurricanes; 6 of these could become ``major'' storms--that is, 
Category 3 or higher. But even today's best science can't tell 
us when, where, how many, or how hard hurricanes might hit. 
Once again, we are playing Russian roulette against Mother 
Nature, and it does not really matter how many bullets are in 
the cylinder. Any one could be lethal. Coastal States from 
Texas to Maine are vulnerable. We have been warned, and we 
should get ready.
    The Select Committee on Katrina found preparedness gaps and 
deficiencies at the Federal, State, and local levels of 
government and cited inadequate preparedness as the cause of 
inexcusable weakness and failures in the disaster response. 
Emergency personnel often lacked requisite experience, skills, 
and training. Evacuations were not coordinated. Critical 
commodities disappeared into clogged logistics channels. 
Medical services were fragmented. Military assistance did not 
always mesh with civilian response plans. Communications broke 
down, and the resulting information vacuum suffocated 
decisionmaking everywhere from the White House to the fire 
house.
    So we asked today's witnesses to describe what has been 
done in response to findings and recommendations by the Select 
Committee, the Senate Homeland Security Committee, the White 
House, GAO, Inspectors General, and others to make sure we will 
be as prepared as possible when disaster strikes. To be sure, 
in the face of catastrophic damage on a regional scale, the 
challenges are enormous. But the size and complexity of the 
task cannot excuse any failure to meet simple human needs--
food, water, shelter, and medical care. This is not rocket 
science. It is the art of caring for our fellow citizens in 
need. It is basic blocking and tackling.
    Since last year, the Department of Homeland Security and 
its subordinate organizations, including FEMA, have worked to 
retool Federal capabilities to support the State and local 
response. More commodities have been bought and prepositioned, 
logistics and tracking systems have been upgraded, and more 
radios and satellite phones have been deployed. The Departments 
of Defense and Health and Human Services have streamlined 
decisionmaking chains and better integrated their programs into 
the National Response Plan. States and localities have 
similarly bulked up their response capabilities.
    But quantitative improvements alone do not necessarily 
ensure we are ready with the agile, proactive, scalable 
response needed to meet Katrina's 2006 counterparts. FEMA is 
still not fully staffed and many key positions are filled on a 
part-time or acting basis. Federal and State medical responses 
do not appear tightly coordinated yet. And recent hurricane 
preparedness exercises, however useful, have also confirmed 
some worst fears about a detached, top-down Federal approach to 
emergency management. An evacuation drill in New Orleans had to 
be canceled yesterday due to confusion about who has 
jurisdiction over a FEMA trailer park.
    Preparedness is not just a governmental obligation. It is a 
societal responsibility. The Federal Government should be ready 
to push help toward the impact zone before landfall. States, 
counties, cities, and towns should be well drilled in public 
communications, evacuation, and shelter operation. Churches, 
nonprofits, businesses, and neighborhoods should have plans to 
mitigate damage and spur recovery efforts. Families and 
individuals should be prepared to protect themselves by 
assembling emergency kits and having a plan.
    Yet very recent surveys show too many people, 
organizations, and businesses are not prepared to do their 
part.
    Our witnesses this afternoon represent every element of the 
national response. Representatives from DHS and FEMA will 
discuss steps to correct the many problems exposed by Katrina. 
Testimony from the Department of Health and Human Services will 
describe a better coordinated public health response to life-
threatening events. As the first military element in every 
disaster response, the National Guard paves the way for all 
subsequent DOD assistance, and their witness will discuss the 
effective integration of defense resources into the civilian 
response. Testimony from State and local emergency managers 
will provide invaluable perspective on the extent to which 
Federal efforts have helped them make tangible improvements to 
local capabilities. And our second panel, consisting of 
preparedness experts from the U.S. Chamber of Commerce, the 
American Red Cross, and the Council on Excellence in 
Government, will confirm the critical importance of corporate 
and individual readiness to an effective national response.
    I ask unanimous consent that Mr. Taylor of Mississippi and 
Mr. Melancon be permitted to participate in today's hearing. 
And I now recognize the distinguished ranking member, Mr. 
Waxman, for an opening statement.
    [The prepared statement of Chairman Tom Davis follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Waxman. Mr. Chairman, I am pleased you are holding 
today's timely hearing on our Nation's hurricane preparedness. 
Serious questions remain about whether the Government is ready 
to handle another major disaster like Katrina. This week's 
forecast of another active hurricane season underscored the 
importance of addressing the problems exposed by the failed 
response to Hurricane Katrina.
    The House and Senate investigations revealed that the 
failures of the Federal response had two major causes. One 
cause was lack of attention and weak leadership from top 
officials at the White House and Department of Homeland 
Security. The other cause was that the Government's plans, 
organizational structure, and personnel were inadequate to 
provide the rapid and massive response that was needed.
    We hope that the administration has learned from Katrina 
that major disasters require all hands on deck and engagement 
by senior leadership. But I question whether the organizational 
and planning problems have been sufficiently addressed.
    Since Katrina, Secretary Chertoff has stripped FEMA of its 
responsibility for preparedness, even though experts agree that 
preparedness and response are two sides of the same coin that 
should be handled by one agency. Senior posts at FEMA and DHS 
remain unfilled, in part because experienced emergency managers 
are unwilling to work in an organization they perceive as 
broken. And responsibility for medical response is still 
divided between HHS and DHS, while the National Disaster 
Medical System remains understaffed and undersupplied.
    Some progress has been made, and the Nation is better 
prepared for a hurricane season than we were last summer, when 
Katrina was bearing down on the Gulf Coast. But the response to 
Hurricane Katrina was such a massive failure--and such a 
profound betrayal of our Government's obligation to care for 
our most vulnerable citizens in their time of greatest need--
that it is not enough for our Government simply to be better 
prepared than it was for Katrina.
    The American public deserves an effective, efficient, top-
notch hurricane response.
    I thank the witnesses for appearing today. I look forward 
to hearing about how each of you have responded to the lessons 
learned from Katrina.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Thank you, Mr. Waxman.
    Members will have 7 days to submit opening statements for 
the record.
    Ms. Norton, do you want to make any comment?
    Ms. Norton. Yes, Mr. Chairman, I have a brief opening 
statement.
    I wanted to stop by to express my concern. I appreciate 
that evidence has been forthcoming of preparations for the 
coming season of hurricanes, and I do believe that there has 
been some response to Katrina, but, Mr. Chairman, you said the 
old adage about the sun is shining and fixing the roof. But, 
according to the National Weather Service, in the Gulf the sun 
may be shining for only the next 2 or 3 days because they are 
already predicting the first storm called Alicia and say that 
we may be getting her within the next 2 or 3 days and that she 
may be a Category 3 storm who may take a turn right into a part 
of the Gulf. The National Weather Service tells us there are 
going to be 16 storms and 6 of them will be major hurricanes.
    What I wanted to bring to your attention was something that 
came to my attention in the ordinary course, and that is, a 
report about a 2-day statewide hurricane preparedness drill 
that involved the largest FEMA trailer park in the State 
located in Baker, which is close to Baton Rouge.
    This drill involving the--the 2-day evacuation drill is a 
very good thing to do, a real-time exercise they were doing 
statewide. When they got to this part of the exercise involving 
what everybody would understand are the most vulnerable people 
in the State at the time, they had to call it off, and this is 
what caught my attention. I want to quote what the director of 
the East Baton Rouge Parish Office of Homeland Security and 
Emergency Preparedness apparently told the Associated Press. 
Her name is JoAnne Moreau. ``We were unable to get any 
information from the State or Federal Government on what 
policies or procedures were for evacuating those sites, whose 
jurisdiction it was.'' Heavens. The notion with respect to 
trailer parks that kind of basic understanding was not 
automatic could not be more troubling to me. I am on the 
Homeland Security Committee. I am on this committee. That kind 
of albeit anecdotal evidence does not inspire confidence.
    I am very concerned. I am very concerned because it was a 
trailer park. I am very concerned because the trailer parks do 
not have landlines and, therefore, have the kinds of cell 
phones that, according to the reports, do not work well in any 
case, and certainly not in storms. I think this committee ought 
to be concerned. I think Homeland Security ought to be 
concerned, the Homeland Security Committee ought to be 
concerned. I think the Transportation Committee ought to be 
concerned. Those are the three committees here that have 
jurisdiction. And, most of all, I think the Department of 
Homeland Security, which clearly has not even gotten its chain 
of command in order for one of the most vulnerable populations, 
harking us back, God help us, to Katrina.
    And thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    We will now move to our first panel. We have the Honorable 
George W. Foresman, the Under Secretary for Preparedness, U.S. 
Department of Homeland Security; Mr. Robert Shea, the Acting 
Director of Operations, Federal Emergency Management Agency, 
Department of Homeland Security; Major General Terry Scherling, 
the Director of the Joint Staff, National Guard Bureau. We have 
Rear Admiral W. C. Vanderwagen, the Special Assistant to the 
Secretary, U.S. Department of Health and Human Services; and 
Mr. Robert Latham, chairman of the Legislative Committee, 
National Emergency Management Association, and director, 
Mississippi State Emergency Management Association; and Walter 
Dickerson, director, Mobile County Emergency Management Agency.
    I ask unanimous consent to include in the hearing record 
statements submitted by Max Mayfield, who is the director of 
Tropical Forecast Center, National Weather Service, and the 
organization Voices for America's Children. Without objection, 
so ordered.
    [The prepared statement of Mr. Mayfield follows:]
   

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    [The prepared statement of Voices for America's Children 
follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Chairman Tom Davis. It is our policy we swear all witnesses 
in before you testify, so if you would just rise and raise your 
right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you.
    Mr. Foresman, thank you. A pleasure to have you here today.

     STATEMENTS OF GEORGE W. FORESMAN, UNDER SECRETARY FOR 
  PREPAREDNESS, U.S. DEPARTMENT OF HOMELAND SECURITY; ROBERT 
    SHEA, ACTING DIRECTOR OF OPERATIONS, FEDERAL EMERGENCY 
MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY; MAJOR 
   GENERAL TERRY L. SCHERLING, DIRECTOR OF THE JOINT STAFF, 
NATIONAL GUARD BUREAU; REAR ADMIRAL W. CRAIG VANDERWAGEN, M.D., 
 SPECIAL ASSISTANT TO THE SECRETARY, U.S. DEPARTMENT OF HEALTH 
  AND HUMAN SERVICES; ROBERT R. LATHAM, LEGISLATIVE COMMITTEE 
CHAIR, NATIONAL EMERGENCY MANAGEMENT ASSOCIATION, AND DIRECTOR, 
 MISSISSIPPI STATE EMERGENCY MANAGEMENT AGENCY; AND WALTER S. 
DICKERSON, DIRECTOR, MOBILE COUNTY EMERGENCY MANAGEMENT AGENCY/
                       HOMELAND SECURITY

                STATEMENT OF GEORGE W. FORESMAN

    Mr. Foresman. Thank you, Chairman Davis, Ranking Member 
Waxman, and members of the committee. Thank you for the 
opportunity to appear today to discuss the national 
preparedness as it relates to the 2006 hurricane season. 
Preparedness, as you noted, Mr. Chairman, is not simply a 
Federal mission. It is a shared national responsibility among 
all levels of Government, including the military, the private 
sector, and, most critically, the American people.
    There has been significant review of the Katrina response, 
what worked and what did not. The scope of these reviews is 
unprecedented. We have cataloged important facts and 
perspectives. The reviews have galvanized action at all levels 
and across the full range of our national preparedness.
    I have spent more than 20 years in this business, and I 
should note that many of the issues raised during the Katrina 
review are not new. They mirror findings after storms like 
Hugo, Andrew, the Midwest floods, and the Northridge 
earthquake, to name a few. The fact that we are still dealing 
with these underscores that over the past 20 years, this 
country has lacked a comprehensive national approach to 
preparedness, flexible enough to adequately adapt in an all-
hazards environment. The Northeast blackout, the September 11th 
attacks, and the host of public health crises have revealed the 
need to modernize preparedness for the realities of a 21st 
century America and the full range of risk that we face.
    With this in mind, Secretary Chertoff announced the Second 
Stage Review changes last July to ensure that national 
preparedness efforts are better coordinated and more 
comprehensive. He said then, and Katrina subsequently proved, 
that the old preparedness approach of the 1990's and early 21st 
century had not gotten us ready for the catastrophic scenarios.
    Understanding the practical lessons from Katrina and in 
looking first at the Federal piece and then across the 
remainder of our partners--local, State, public sector and 
private sector--we asked several questions that have guided our 
work for the coming hurricane season.
    First, which preparedness areas require immediate attention 
to achieve a modern 21st century approach that will better 
position us for catastrophic hurricanes like Katrina? Slide 1, 
Mr. Chairman, is a graphic of the combined 224 findings in the 
House, Senate, and White House after-action reviews. These have 
been categorized according to the existing national standards 
for preparedness and the national preparedness goal, both of 
which reflect a modern approach. Two of the highest 
deficiencies are planning and the development of operational 
procedures.
    Second, we asked in the short term for this hurricane 
season, what is a measurable target of national capability so 
that we can be better prepared? We looked at a number of the 
historic hurricanes and, in the case of dollar impact, 
translated those into 2005 dollars and measured deaths, numbers 
evacuated, and homes damaged and destroyed. Slide 2 shows 
Camille in 1969. Slide 3 shows Andrew in 1992. Slide 4 shows 
Ivan in 2004. Slide 5 shows Katrina under the old scenario. And 
Slide 6 shows Katrina with the New Orleans levee breaks. 
Clearly, the New Orleans scenario with the levee breaks 
represents a catastrophic event. I am not here to debate why 
more progress was not made on preparing this scenario 
throughout the 1990's and into the 21st century. What I will 
tell you is that it provides a reasonable short-term benchmark 
for improving our national posture, and especially our Federal 
posture for the current season given the time that we have 
available.
    Our two top leaders at FEMA are experienced crisis 
managers. Under Secretary for Emergency Management nominee Dave 
Paulison and his Deputy, retired Coast Guard Admiral Harvey 
Johnson, along with the thousands of talented employees across 
the Department of Homeland Security and, frankly, the entire 
Federal interagency, are committed to making sure that, along 
with our State and local partners, the private sector, and the 
American people, we have a stronger and more organized 
capability for the upcoming season. We grow in strength every 
passing day.
    Finally, we asked what was needed to be done immediately 
that would have the most dramatic impact on capability for this 
season. There are a few broad themes, Mr. Chairman. First is 
accountability. At the Federal level, the President, Secretary 
Chertoff, and the entire Cabinet have been actively engaged, as 
have senior officials across the Federal Government. There is 
better clarity on how we will operate, make decisions, solve 
needs. Simply saying we are ready is not enough. We are 
measuring our progress. We are practicing, pre-scripting, and 
preparing so that we can act in support of States and 
communities quicker and more clearly.
    The same is true for States and their Governors. Secretary 
Chertoff has visited with many in hurricane-risk areas, and 
they are focused from their levels on down into local 
communities with improvement.
    The findings of the after-action reports are being 
translated into tangible actions, and progress is being 
tracked. This is what separates a modern approach to 
preparedness from our past approach. These will be lessons 
learned and not simply lessons documented.
    Second is organization. We have retooled FEMA and the 
National Response Plan to ensure that decisions are made by 
those closest to the incident and that Federal and State 
officials will operate with unity of effort, and this includes 
the military, active, reserve, and the Guard. The full 
resources of the Federal Government are actively being teed up, 
both civilian and military.
    The third area is communications and awareness. We have 
taken the initiative to collocate State and Federal authorities 
into one joint field office to streamline communication and 
improve coordination. Roles and responsibilities have been 
clarified.
    The communications architecture of the Gulf States, for 
instance, has been met so that we have pre-season visibility as 
to what resources might be needed in the aftermath of a 
significant storm. Pre-scripted communications mission 
assignments are ready to more quickly meet a wide range of 
potential needs, including communication operability and 
interoperability.
    For a Katrina-scale event, where local and State 
capabilities may be stretched or overwhelmed, we put additional 
tools at the disposal of decisionmakers: satellites in space 
and satellite phones on the ground.
    Slide 7 shows the resources that have been prepositioned to 
support the most vulnerable areas based on NOAA predictions for 
this hurricane season. I would also note on this particular 
slide, it is courtesy of our intelligence community. 
Enhancements are in place to ensure that the private sector has 
the information they need to protect systems, deliver aid, and 
restore their services.
    And, finally, with regard to logistics and supplies, my 
good friends Bob Shea and Admiral Vanderwagen will talk about 
FEMA and Health and Human Services efforts; General Scherling 
will talk about the Guard; Robert Latham knows interstate and 
State capabilities through the Emergency Management Assistance 
Compact and intrastate mutual aid agreements; and Walter 
Dickerson understands the realities on the ground of 
coordinating in a community and the importance of getting 
disaster victims what they need.
    I encourage that each of their comments be taken in the 
context of a large national integrated approach. Simply put, we 
are working to make sure that relief is at the right place at 
the right time.
    Mr. Chairman, in closing, let me be perfectly clear. This 
season will not be without problems or errors. Our goal is to 
make sure that the problems and errors are associated with the 
disaster, as they normally are, and not with the disaster 
response. Dramatic improvements have been made in 9 months. 
There is more to be done, but we are ready and will be more 
ready with each passing day.
    In closing, let me say that for all of this I still remain 
very concerned about the safety and security of the American 
people, as you noted in your opening statement. Recent surveys 
tell us that they are not ready for hurricane season. In the 
spirit of a shared goal of this committee and all of us here 
today, there is a simple message that we need your help on this 
committee and getting out to your constituents. Federal, State, 
and local officials are getting ready for the hurricane season, 
and so must those who live in the hurricane-vulnerable areas. 
They need to have a plan. They need to build a kit. And, most 
importantly, they need to be informed.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    [The prepared statement of Mr. Foresman follows:]
    


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Tom Davis. Thank you.
    Mr. Shea.

                    STATEMENT OF ROBERT SHEA

    Mr. Shea. Good afternoon, Mr. Chairman and members of the 
committee. My name is Robert Shea. I am the Acting Director of 
Operations for the Federal Emergency Management Agency. On 
behalf of FEMA and the Department of Homeland Security, I am 
honored to appear before you today to discuss FEMA, some of our 
challenges and accomplishments over the past year, and our 
preparations for the upcoming hurricane season.
    FEMA is undergoing an extensive retooling process to 
improve response operations. Let me also note for the record 
that we are grateful for the report of the House bipartisan 
committee and the other reports and reviews which form the 
basis of our retooling effort. Areas we are focusing on include 
logistics, building a 21st century disaster supply tracking 
system, establishing advance contracts and vendor lists for 
greater surge capacity, including a historic memorandum of 
agreement with the Defense Logistics Agency. The cooperation 
has frankly been magnificent.
    Implementing a strategic commodity prepositioning plan, we 
now have stocked and prepositioned four times as much ice, 
water, and food as we had prior to Hurricane Katrina, enough to 
sustain 1 million people for 7 days. We are also improving our 
delivery of disaster commodities within States through the 
first National Prepositioned Commodities Plan.
    With respect to emergency communications, we are enhancing 
communications capabilities and interoperability in the field, 
and we are upgrading information technology systems, both 
generally speaking and also specifically within the National 
Response Coordination Center, and providing seamless 
connectivity with the National Operations Center.
    With respect to situational awareness, we are deploying 
response liaison teams with satellite phone capability to tie 
into State and local Emergency Operations Centers. We are also 
deploying DHS situational awareness teams within interoperable 
communication assets to provide real-time disaster activity 
information from the heart of the disaster. And, finally, we 
are staffing for the first time two Federal Incident Response 
Support Teams [FIRST].
    We are also greatly increasing our coordination with our 
partners. Secretary Chertoff, Acting Director Paulison, and 
Under Secretary Foresman, and other members of the Department's 
leadership team have been meeting with senior elected officials 
in hurricane-prone States. This is an ongoing process and will 
continue throughout the season. Working with Under Secretary 
Foresman and his staff, DHS has predesignated principal Federal 
officials, deputy principal Federal officials, and Federal 
coordinating officers who are working with their State 
counterparts in advance of and during the upcoming hurricane 
season.
    FEMA is participating in a series of more and more in-depth 
exercises, training sessions, and conferences with Federal, 
State, and local partners to improve our response and recovery 
efforts. We are also greatly improving our coordination with 
the Department of Defense--NORTHCOM, the National Guard, the 
U.S. Corps of Engineers, and the Defense Logistics Agency. 
Never has our planning been so well coordinated or so well 
supported by the hierarchy of the Department of Defense.
    A defense coordinating officer is now permanently located 
in each of the 10 FEMA regional offices for ongoing 
preparedness and response coordination. In addition, we have 
also completed work on pre-scripted mission assignments, 31 
this year as opposed to 13 last year.
    FEMA is working with primary and emergency support function 
agencies and has a finalized--a refined Concept of Operations 
for the 2006 hurricane season. FEMA plans to activate more 
assets earlier and place them closer to anticipated landfall.
    The American Red Cross is stepping up to the plate and 
working jointly with us to address shelter management issues.
    Finally, our internal partners in DHS have been great. I 
frankly wonder where we would have been without the effort and 
support of the management areas of the Department of Homeland 
Security and the Preparedness Directorate. And how can I say 
enough about the Coast Guard, as well as the U.S. Secret 
Service, the Customs and Border Protection, Transportation 
Security Administration, and Immigration and Customs 
Enforcement. In short, we are learning from our mistakes, and 
we are seeking to achieve a unified command.
    Finally, or next, FEMA is augmenting survivable and 
interoperable communications capabilities. We have increased 
capabilities with high-frequency equipment such as land mobile 
radios, disaster satellite communications, and mobile 
communications. We have also tested our enhanced capabilities 
and will continue to do so through interoperability exercises.
    FEMA will train this year 3,000 generalist cadre disaster 
employees for ready deployment during the 2006 disaster season. 
This is a reserve cadre, really. These are the folks who worked 
last year for us during Katrina--volunteer firefighters, the 
U.S. Coast Guard Auxiliary members, and the Blackfeet tribe 
from Montana. These generalists will be trained across 
traditional program lines and program areas, including 
community relations, public assistance, and individual 
assistance. Training is now taking place and will continue 
throughout the summer, although by June 1st we are estimating 
that 70 percent of this cadre will have been trained. These 
generalists will free up FEMA's more specialized and 
experienced workers to tackle the more significant challenges 
of a disaster environment.
    FEMA is also planning for the special needs population. We 
are working a coordinated process with the Department of 
Homeland Security Office of Equal Rights and our own office to 
work with State and local officials to plan for evacuation, 
sheltering and housing of special needs, also quickly 
reconnecting them with the medical facilities, pharmacies, and 
their entire support structure.
    Finally, the National Disaster Medical System is also 
working with State and local officials to prepare for potential 
medical evacuations.
    FEMA's recovery initiatives are many for 2006. As I said 
earlier, we are working with the American Red Cross to improve 
shelter population management. We are increasing registration 
capacity on a daily basis from 100,000 to 200,000, part of our 
overall enhancement of our IT system. We are piloting 
deployable mobile registration intake centers. We have enhanced 
identity verification during registration. We are expanding 
home inspection capacity now to 20,000 per day. We are 
improving the speed and suitability of temporary housing. And, 
finally, with respect to debris removal, we are putting in 
place process enhancements, including consistent cost sharing 
and enhanced and expedited local contracting. In short, we are 
leaning farther forward in this season than any season in my 
memory or in the history of the agency.
    I have been involved in emergency management since the 
inception of FEMA. I began my career on December 3, 1979. The 
new leadership team at FEMA--David Paulison, the Director-
Designate, who appeared before his Senate confirmation hearing 
just today; Admiral Harvey Johnson, our new Deputy who came to 
us after a spectacular career at the Coast Guard; Deidre Lee, 
our new Deputy Director of Operations and one of the top 
acquisition people in all of Government, who I think has 
already appeared before this committee--we are all working very 
hard to build FEMA's work force. When I returned to FEMA in 
late February, we were down to 73 percent of our permanent 
full-time work force. One in four positions were vacant, and we 
are currently experiencing double-digit retirement every month. 
Please know that your words hang in the hallways of FEMA. 
Please help us create a stable and attractive future so that 
we--you and the FEMA leadership team--can pull together a FEMA 
work force that has the right tools to earn your trust and that 
of the American public.
    Thank you for your time, and I look forward to answering 
any questions you may have.
    [The prepared statement of Mr. Shea follows:]
    


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Chairman Tom Davis. Well, thank you very much.
    General Scherling, thanks for being with us.

                STATEMENT OF TERRY L. SCHERLING

    Major General Scherling. Thank you, Mr. Chairman and 
members of the committee. It is my honor to come before you 
this afternoon to discuss the actions taken by the National 
Guard to prepare for the upcoming hurricane season. While the 
National Guard response to Hurricane Katrina was a strong 
success, there are some clear lessons that have been learned 
and some areas for improvement, to include understanding our 
capabilities, improving situational awareness, communication 
and coordination, and unity of effort.
    Since Katrina, the National Guard Bureau has hosted several 
planning and coordinating meetings with the Gulf States. In 
addition, we have participated in exercises, most recently 
Ardent Sentry, a NORTHCOM-hosted exercise. That exercise had a 
purpose of testing the military support provided to Federal, 
provincial, State, and local authorities, while continuing to 
support Department of Defense homeland defense duties. There 
were approximately 5,000 military members of both the United 
States and Canada participating in numerous different events 
and disasters, to include major hurricanes, a terrorist attack, 
and also a pandemic flu outbreak. The goal was to define points 
of failure, and I would say that we also had a shared goal of 
improving communications, interagency coordination, and 
emergency response training.
    As an outcome of that exercise, it is important that I 
share with you that we have improved our working relationships. 
I believe that there is still room for improvement. But we have 
much better visibility of our communication and coordination 
capabilities.
    The National Guard Bureau, as I mentioned, has conducted 
several hurricane workshops. Most recently we conducted a 
workshop in New Orleans with the Adjutants General from each of 
the hurricane States. We also had invited members of the 
Department of Homeland Security, to include Secretary Foresman, 
representatives from FEMA; also Department of Defense, to 
include the Deputy Commander from U.S. Northern Command.
    We have also hosted planning meetings for our National 
Guard representatives in the Hilton Head area as well as down 
in Florida. We have had a number of States participate in those 
meetings, along with members of NORTHCOM and the interagency.
    The National Guard is committed to improving our 
interoperability. We have made many investments in our 
communication capability, to include training for our personnel 
at the Joint Interagency Training Center, and also in each 
State.
    Through the application of lessons learned, the National 
Guard is even better prepared this year to work with our 
Governors and supporting them, as well as the President, and we 
indeed look forward and feel prepared to support our American 
people and their needs.
    I look forward to your questions.
    [The prepared statement of Major General Scherling 
follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Tom Davis. Thank you very much.
    Admiral Vanderwagen.

               STATEMENT OF W. CRAIG VANDERWAGEN

    Rear Admiral Vanderwagen. Thank you, Mr. Chairman. My name 
is Craig Vanderwagen. I am a family physician and Uniformed 
Officer of the U.S. Public Health Service. I have also, as you 
noted, been acting as an Assistant to Secretary Leavitt in 
developing our actions in response to the lessons we have 
learned from a wide variety of sources.
    I have to tell you we have the enthusiastic and full 
engagement of our senior leadership, and on a daily basis we 
are engaged in dialog about ways that we can make the next step 
forward. I will tell you that we are better prepared. We have 
examined the spectrum of response from pre-hospital to burial, 
including mental health, public health activities, primary 
care, special needs shelters, Federal medical shelters, the 
full spectrum. We have identified the assets needed and, 
working with our Federal partners, have begun the development 
of identified teams with the skill sets and the equipment 
needed to meet those mission assignments.
    As Secretary Foresman noted, we have been working with our 
Federal partners to assure that we have pre-scripted mission 
assignments that clarify the responsibilities of each of us as 
we move forward to respond.
    We have, in concert with DHS, identified the leadership 
that we will deploy the JFO, to the community level, to take 
action. We will assure that there is a clarity of command and 
control by making certain that we have a clear line of control 
in our organization that is aligned with the incident command 
structure of the Department of Homeland Security and FEMA.
    We will also assure that we have full communication, not 
only through interoperable sharing of information from the 
local all the way up, but we also will assure that each one of 
our teams has full capability to communicate with multiple 
levels of redundancy--cell phones, land mobile radios, with 
multiple programmable frequencies, identified frequencies with 
our Federal partners, local partners, etc., satellite radios 
and satellite IT communication.
    Our Federal partners have fully embraced the challenge. The 
Veterans Affairs people have joined with us in identifying 
teams. Our DOD colleagues and our NDMS folks meet on a weekly 
basis to assure that we have clarity of responsibility and 
asset allocation.
    We are also working to assure that we have more active 
means of engaging civilian volunteers and bringing them 
together in meaningful teams through our support and expansion 
of the Medical Reserve Corps. You may know there are 432 units 
nationally at this point and close to 50,000 individuals who 
have identified themselves and been credentialed in that 
process.
    There are additional long-term objectives that we are 
committed to meeting. That includes the deployable electronic 
health record that has full interoperability and full-time 
deployable teams in the health arena.
    We are mission-driven organization. We believe that 
everything we do must focus on meeting the health needs of 
people not only in disasters but on a day-to-day basis, and I 
will be happy to answer any questions you may have. Thank you, 
Mr. Chairman.
    [The prepared statement of Rear Admiral Vanderwagen 
follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Tom Davis. Thank you.
    Mr. Latham.

                 STATEMENT OF ROBERT R. LATHAM

    Mr. Latham. Thank you, Mr. Chairman, for the opportunity to 
be here again before you to represent the State of Mississippi 
and the National Emergency Management Association, of which I 
currently serve as legislative chairman.
    As our State prepares for what experts predict to be yet 
another active hurricane season, we do so in the shadow of 
Katrina and the massive devastation along the Mississippi Gulf 
Coast. More than 100,000 citizens are currently living in 
temporary housing travel trailers--38,000 to be exact--and 
manufactured housing, mobile homes, and other temporary 
structures that certainly will be more vulnerable during this 
hurricane season. More than 518,000 of our citizens have 
registered for individual assistance. This represents about 48 
percent of the households in the State of Mississippi. Over 
8,600 public assistance projects have been approved by FEMA for 
infrastructure repair, totaling over $1.1 billion. The Small 
Business Administration has accepted over 86,000 loan 
applications totaling $2.3 billion. The National Flood 
Insurance Program has paid out more than $2.3 billion in claims 
to more than 19,000 policy holders.
    While we feel that our preparedness for and response to 
Hurricane Katrina went well in Mississippi, we can and must 
always do better. We are confident that our planning 
adjustments and new initiatives will improve State and local 
capability, reduce property loss, and ultimately save lives.
    I would like to take a few minutes to highlight some of the 
preparedness initiatives that our State is undertaking. Under 
Governor Barbour's leadership, we developed and implemented an 
8-week, statewide ``Stay Alert, Stay Alive'' campaign focusing 
on those vulnerable citizens that now live in temporary 
housing. Each week we focused on different areas, which were 
individual and family preparedness, private sector 
preparedness, flood insurance, logistical planning, mental 
health, evacuation, and sheltering.
    We developed a comprehensive logistics planning cell 
capability, engaging both the public and private sectors as 
partners in this effort. While this is a huge step, better 
coordination and integration with our Federal partners is 
absolutely critical.
    We have initiated a statewide disaster reservist program, 
similar to FEMA's Disaster Assistance Employee Program, that 
would provide MEMA with a surge capacity of personnel with 
critical skills in times of disaster. We will occupy a new 
77,000-square-foot, state-of-the-art Emergency Operations 
Center by the end of July that will improve the State's 
command, control, communication, and coordination capability. 
MEMA staff has been increased to improve preparedness and 
response capability as well as the preparedness things that are 
so critical and necessary before an event, and establishing 
those relationships with local governments so that once the 
response is initiated, we understand the capabilities as well 
as the limitations of each.
    While the House, Senate, and White House have completed 
reports outlining the lessons learned and recommendations for 
improvement for Federal response to disasters, I feel it is 
important to articulate the most important issues that are 
relative to Federal initiatives aimed at preparing for the 2006 
season.
    We have to be careful not to create parallel initiatives at 
the Federal, State, and local level that address logistical 
shortfalls or failures. While all of these efforts are 
important, we have to integrate them and pull them together as 
a seamless, coordinated effort. Preparedness initiatives cannot 
be driven from the top down but, rather, must operate from the 
system that can make a difference, and that is from the bottom 
up.
    Exercises should not be conducted in a sterile environment. 
Doing so will not give us a realistic assessment of capability. 
We must train as we would fight and test continuity of 
operations, communications systems, message flow, equipment and 
commodity tracking, and the other critical components of our 
response system.
    Long-term recovery officers should not be in the business 
of directing coordinating response. The office should continue 
to allocate and dedicate all of its resources and energy to its 
primary mission, that is, the recovery of the Mississippi Gulf 
Coast.
    The concept of the new FEMA FIRST teams has potential for 
significant success, but the pre-deployment coordination and 
reporting protocol raises some concerns. All elements of the 
FIRST team should only be deployed after coordination and at 
the request of the State and must be integrated into and work 
within the unified command structure that worked so well in 
Mississippi.
    The most important and critical component for strengthening 
our national preparedness and response to disasters is Federal 
funding. While billions of dollars have been invested to secure 
our homeland and prepare for acts of terrorism, funding for 
natural disaster preparedness has suffered. This was evident in 
Katrina. The current fiscal year 2007 proposed funding level 
for the Emergency Management Performance Grant is only $170 
million. After modest increases, EMPG's growth rate has not 
kept pace with increased Federal requirements. The burden of 
effective response, recovery, and mitigation falls to State and 
local governments. All disasters are local. Increased capacity 
building at the State and local level will result in less of a 
reliance on a Federal response, decreased costs, and a more 
effective and efficient system. This year, of all years, the 
administration is proposing to cut EMPG by $13.1 million, 
despite the $260 million shortfall identified by NEMA in a 2004 
study. EMPG is the only source of funding to assist State and 
local governments with planning and preparedness and readiness 
efforts associated with natural disasters.
    Regardless of the organizational structure of FEMA, NEMA 
recommends that preparedness be closely linked with response 
and recovery and that the FEMA Director has a direct reporting 
relationship to the President of the United States. The 
relationship could be structured much like that of the chairman 
of the Joint Chiefs of Staff reporting to the President in 
times of crisis or war. The appropriate role for the active-
duty military is to provide assistance and support to civil 
authorities. This is the foundation that makes this country 
what it is.
    NEMA strongly recommends revisiting the National Response 
Plan with rigorous input from representatives of State and 
local emergency response community that actually have to make 
it work on the ground. These issues include: clarification of 
the role of the FCO; elimination of the role of the PFO, which 
we do not understand the relationship; maintain emergency 
support functions as a means to integrate all disciplines into 
the command and control structure in the Emergency Operations 
Center.
    However, the Department of Homeland Security has already 
conducted an internal review of the National Response Plan. The 
final version is anticipated for publication by June 1st. 
However, there was no stakeholder participation in this review.
    In closing, Mr. Chairman, you are correct, quantitative 
solutions are not enough. We must breed a new culture of 
preparedness in this country. We are destined to repeat 
history, just as we did after Camille, Andrew, and others, if 
we do not take the bold steps to fix our problems now. We 
continue to travel the same road again, and we will get the 
same results. Our Nation can and must do better. Those we 
serve--the citizens--expect nothing less of us.
    Thank you again for the opportunity to be here on behalf of 
NEMA and the State of Mississippi, and I look forward to your 
questions.
    [The prepared statement of Mr. Latham follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Thank you.
    Mr. Dickerson.

                STATEMENT OF WALTER S. DICKERSON

    Mr. Dickerson. Good afternoon, Mr. Chairman and 
distinguished committee members. First of all, I would like to 
focus on the recovery efforts of Hurricane Katrina and those 
lessons learned and what we have done in the State of Alabama 
and also in Mobile County. Also of the utmost importance will 
be addressing the preparedness efforts for the 2006 season. 
Through the leadership of Governor Bob Riley, the State EMA 
Director Bruce Baughman, and local county officials, we have 
put a team together that continues to address the long-term 
recovery issues as a result of Hurricane Katrina, while 
ensuring we continue to move forward with our preparedness for 
the upcoming hurricane season. Being a local government, our 
position and role as part of the National Response Plan is one 
of all hazards, with a comprehensive plan for domestic incident 
management which includes activities involving prevention, 
preparedness, response, mitigation, and recovery. This is 
essential in protecting the life and property of our citizens.
    As part of catastrophic planning efforts, we realize at the 
local level that the potential catastrophic incident could 
result in a sustained national impact State and local impact 
over a prolonged period of time. Therefore, this type of 
situation will exceed our local cleanups. Hopefully the 
National Response Plan will greatly assist us at the local 
level if or when a catastrophic event occurs along the Gulf 
Coast again.
    One thing we realize in the State of Alabama and Mobile 
County is that we must have a readiness plan in place that will 
allow us to function and stand alone for at least 72 hours. As 
a part of this plan, we are also--not only are we preparing our 
agencies and responders to be prepared, but we are urging our 
citizens to be prepared also. They must take that same outlook 
of the 72 hours of preparedness.
    We are doing such things with the community as the Citizens 
Corps Program, the Community Emergency Response Training 
[CERT]. We are providing training to our citizens for the 
purpose of having them better informed and prepared for 
disasters. We are recruiting volunteers to assist us in 
shelters and many other segments.
    Since the devastation delivered by Hurricane Katrina, 
Mobile County has been working diligently to enhance our 
comprehensive Emergency Operation Plan, especially as it 
relates to preparedness, response, recovery, and mitigation. 
Shortly after Hurricane Katrina made landfall, we formed an 
Evacuation, Logistics, Media/PIO, Search and Rescue, and a Mass 
Care Task Force. We did this 2 weeks after Hurricane Katrina 
made landfall in order to prepare for the 2006 hurricane 
season. Through the All Hazards Disaster Plan, we have 
purchased generators, organized shelter support teams. We have 
a plan in place to evacuate citizens without the ways and 
means, upgrading our existing Emergency Operations Center, 
using pick-up stations, i.e., community capabilities. We have 
improved our interoperability. We have purchased satellite 
phones. We have a regional interoperability AC-1000 unit. We 
have revisited and established a dedicated executive 
decisionmaking team. This team will get together prior to any 
disaster, especially hurricanes, before we would go in and 
brief the elected officials on the situation.
    Also, we have reached out and brought our hospitals to the 
table, our assisted living agencies, and nursing homes. We have 
established and are working to develop an outreach program. We 
are establishing shortfalls now, and we are about 75 percent 
through to the State EMA because the State EMA, they must have 
time also to respond to our shortfalls, and that is personnel, 
equipment, etc.
    Also, we have set up distribution points to handle our 
commodities. We have the lat. and long. directions in place. We 
have developed clearance times based on the general population 
of special needs, medical needs, and nursing homes, assisted 
living, and other segments of our population. We continue to 
make every effort to work in partnership with the State and 
local EMA.
    Mr. Chairman and distinguished members, on behalf of the 
citizens of Mobile County, I would like to thank you for this 
opportunity, and I will entertain any questions that you may 
have.
    [The prepared statement of Mr. Dickerson follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Well, thank you. We are in votes right 
now, but I think we can go for 10 minutes. I am going to start.
    The Federal Government's capabilities are particularly 
important in response to a catastrophic incident like Katrina. 
On the one hand, I hear that FEMA and DHS have upgraded their 
responsibility capabilities through the FIRST teams, the 
National Operations Center, and other procedures, technologies, 
and organizational changes. On the other hand, I hear Mr. 
Latham say that these new forms of support need to be 
integrated into a unified command structure through the State 
and local emergency managers.
    The Federal Government was criticized for its slow 
response, yet the States seem to want that responsibility 
dictated by the State and local requests. So this raises the 
central question in all this. When should the Federal 
Government push resources into the affected area without the 
request of the State? How will the Federal Government know when 
to trigger a push response? How will the Secretary decide when 
to activate a Catastrophic Incident Annex and supplement to 
respond to a catastrophic event? Do you want to take a shot at 
that?
    Mr. Foresman. Thank you for the question, Mr. Chairman, and 
I think that there are two issues that we are having to deal 
with here. First, I think Mr. Latham was right on point about 
the need for integration, and that is the whole point of us 
having predesignated the principal Federal officials, the 
Federal coordinating officers doing the series of regional 
exercises, doing the communications exercises. And this is 
going to be an ongoing, iterative process, and one of the 
things is that we have made phenomenal changes to our posture 
to be there, not to replace but to support State and local 
governments. And, clearly, we have to get out even after this 
exercise period and make sure that is integrated down at the 
local and State level.
    The other importance about the exercise process and in 
having that visibility into the State and local governments, 
Robert and his team over in Mississippi did a fabulous job 
doing an evacuation, a very complicated evacuation, doing a 
very complicated response. And, fortunately, we had people that 
were working with him that knew him personally; they knew the 
capabilities of the State of Mississippi. And we have learned 
two big lessons out of Katrina. One, we have to have more 
resources closer to the disaster site, far enough back that 
they are going to be protected in the storm, but able to 
readily respond, whether it is people or equipment or other 
types of stuff. But at the same time, we also realize that in 
the context of an incident of national significance or a 
catastrophic event on the scale of Katrina, if the ability of 
local government or State government to be able to assess their 
situation is compromised, we need to provide those tools, as we 
mentioned, whether it is the FIRST teams, the reconnaissance 
teams, the satellite technology, so that Robert as a State 
coordinating officer, or the Federal coordinating officer or 
the principal Federal official could say, look, you know, we 
can't get word back from this local community, but we have to 
put assets downstream and that we are prepared to implement 
that Catastrophic Incident Annex to the National Response Plan.
    But I have to tell you, Mr. Chairman--and we told the 
Adjutant Generals this; we have told the Governors this--given 
the experiences that we all collectively went through last 
year--and I don't think there is a Governor in this country 
along the hurricane-vulnerable States that is not paying 
attention to this--that ``hot breath'' they are going to feel 
on the back of their neck are their Federal partners behind 
them ready to support them, but at the same time if there is 
any indication that the State and local governments are unable 
to perform the missions that they need to perform, we are going 
to be there ready to support them, and, frankly, we will be 
ready to push resources when necessary.
    There are some States--which we intuitively know which ones 
they are--that are better than others, and, you know, we just 
have to do it based on our years of experience in working with 
these folks.
    Chairman Tom Davis. Does anybody else want to respond?
    Mr. Latham. Yes, Mr. Chairman, certainly George and I have 
known each other a long time, so I think that many of my 
comments came as a result of the very first FIRST Team 
Conference that was held in Baltimore just a few weeks ago that 
I had the opportunity to attend, where they briefed the concept 
of the FIRST team. And one of the things that we were 
uncomfortable with, we as the State, is that we got the 
impression that maybe the FIRST teams may show up at the local 
level, and then we get a call from the State--to the State EOC 
that we have a FIRST team down here. I think it is important, 
and I think we corrected that at that conference.
    No. 1, I appreciate FEMA inviting the States because I 
think the State perspective in all of that is very important, 
and that we realize that has to be integrated into the State 
system; and now that there are only two going into this system, 
that those two teams be put where the most critical need is, 
and that we not take a broad-brush approach to correcting 
problems nationwide when they may only exist in certain cases. 
And I certainly want my Federal partners breathing down my neck 
with supplies when I think I might need them. It is going to be 
very comforting to know that. And it is so important that those 
be integrated into the plans that the State and local 
governments have so that we do not have such a Federal response 
that the State and local governments cannot manage it.
    Chairman Tom Davis. Go ahead.
    Mr. Dickerson. Mr. Chairman, real quick, I think one thing 
we have to really be concerned with, we talk Category 3 storms 
and above, but if you are in a coastal area--that is, in Mobile 
County, in Zone 1, which is Bayou La Batre, Dauphin Island--to 
those people that could very quickly, very easily be a Category 
3 or 4 or 5 storm, although from the National Hurricane Center 
they may indicate it as a Category 2 storm or a Category 1 
storm. So I think we look at Mobile County, and in that regard, 
we would have to have--more shelters would have to be manned. 
So we welcome any Federal support prior to the storm making 
landfall. I think that is extremely important.
    Chairman Tom Davis. The private sector controls a lot of 
the goods and services that are necessary to support the 
response to a catastrophe.
    Now, we have heard or I have heard from a lot of different 
suppliers that their experience in the past in getting 
reimbursed causes them to hesitate in the future, and they want 
to be part of the planning process for a disaster so that they 
can ensure that they can be prepared to assist and not worry 
about the reimbursement procedures.
    What are FEMA and DHS doing to involve the private sector 
in planning for the disasters?
    Mr. Foresman. Mr. Chairman, let me take the first piece of 
it at a more macro level and then get Mr. Shea to talk a little 
about the specific processes as FEMA does its contracting.
    We are in the final stages, imminent in the next several 
days, of putting out our final version of the National 
Infrastructure Protection Plan, and among the coordination 
structures that plan provides is a series of cross-sector 
coordinating processes that will allow us to be able to reach 
out to the private sector to give them a higher level of 
visibility in terms of the expected scope and nature of the 
disaster event so that they can protect their own resources, 
but also so that they have an understanding of what are the 
types and nature of resources that are going to be needed to 
respond to it.
    Katrina was an exceptional event because it demanded that 
the private sector and caused the private sector, I think, to 
offer up a lot of gratis support because of the sheer scope and 
magnitude of the event. The vast majority of emergencies and 
disasters that FEMA has those contracts with the private 
sector, you know, it is the normal vendor-contractor 
relationship. But I think one of the big, big takeaways--and, 
you know, this is where we are getting dual use out of the 
Department. The Sector Coordinating Councils were really 
designed to provide structure for intelligence and awareness as 
it relates to a terrorist threat. But we have placed them now 
in an all-hazards context, and it is going to allow us to 
communicate with that private sector community in the full 
range of prevention, deterrence, response, recovery, 
irrespective of what the hazard is. And I will let Bob talk 
about the specific contracting issues.
    Mr. Shea. Yes, Mr. Chairman, essentially we take a two-
track approach to this. In addition to things that George was 
describing through the preparedness organization, DHS also has 
a Private Sector Office, and so we are working with the Private 
Sector Office to explore the full range, really, of 
capabilities of the private sector. Based on my experience, 
there is no way in the world for us to adequately begin to 
respond to and recover from disasters without the private 
sector in this country. They are an important player for us.
    In addition, though, we have some serious issues with our 
contracting capability in FEMA. Part of the solution that we 
have come to is that we have gotten significant support from 
the Under Secretary for Management. She has detailed people to 
help us, but we are also looking at enhanced ways of making 
sure that those vendor payments are processed on a timely 
basis.
    One of the ways that we are doing that is we are reaching 
out to some of the Government contracting capability--General 
Services Administration, also the DCMA, the Defense Contract 
Management Agency, as an example. So we are beginning to send 
some of our workload in those directions.
    Finally, part of our work force development is to greatly 
enhance our capability in both financial management and our 
contracting offices, and we are working very hard. The 
difficulty is that those are very highly sought after positions 
from a governmentwide standpoint, and so we are in a very 
competitive environment. We have some 60 jobs in procurement 
and probably another 20 in our financial management area to 
cover at this point. But we are working hard at trying to get 
those people on board so we can build that capability and be 
responsive.
    The last time we did a review--and we meet about every week 
to look at these kinds of issues--we were in a pretty good 
percentage range. Not perfect yet but in terms of processing 
vendor payments, we are in the 95-percent-plus range within the 
timeframes established for Government accountability.
    Chairman Tom Davis. OK. Thank you. We are going to take 
about a 5 to 10-minute recess. We only have one vote, it looks 
like. Mr. Shays is already over there voting, and he will 
reconvene when we get back, and then we will go to Mr. Taylor.
    Thank you.
    [Recess.]
    Chairman Tom Davis. The committee will come back to order.
    The gentleman from Mississippi, Mr. Taylor, is recognized.
    Mr. Taylor. Thank you, Mr. Chairman.
    My first question would go toward the two gentleman from 
FEMA. One of the things that was a huge hindrance in the rescue 
and recovery operations immediately after Katrina was the lack 
of fuel. And one of the things that hit me was that with 
electricity out from roughly anywhere from 150 to 180 miles 
from my home county, you were not going to get it, say, out of 
our State capital, you were not going to go to Mobile to get 
it, and you sure as heck were not going to get it out of 
Louisiana. And yet we are on several large bodies of water, the 
intercoastal waterway. We have two 30-feet-plus deep channels. 
And one of the things that hit me was FEMA apparently did not 
have contracts in place to have fuel barged in.
    The other thing that struck me--and now I am talking my 
opinion--we had several jobbers who had tanks full of fuel that 
apparently were sitting back watching the market price go up a 
nickel a day and said, ``I am not going to sell.'' And so, 
again, what--and my hunch is now with, you know, approximately 
$2.90 gasoline, that if it were to hit this summer, given the 
tight supplies, we would probably see a 50-cent-a-gallon jump 
in gasoline nationwide. And so you cannot hardly blame the 
jobber, even though you want to, for not sitting back and 
making the most he could.
    So my question is: What kind of contracts do you have in 
place right now that would lock in the price, say, on the day 
of the event? What kind of arrangements have you made--again, 
anyplace that gets hit by a hurricane is going to be a coastal 
community. What kind of arrangements have you made to barge in 
the fuel so you are bringing in one barge rather than hundreds 
of trucks? So that would be question No. 1.
    The second thing--and this falls in your homeland security 
role--Federal flood insurance is under your jurisdiction. I 
know that thousands of south Mississippians were abused by 
their insurance companies when they walked to an empty slab and 
said, ``Your house washed away. You have to prove otherwise. We 
are not giving you a homeowner's check. But, by the way, we 
will give you a Federal flood insurance check.''
    Now, you know and I know that Federal flood insurance is 
paid for by the taxpayers. That homeowner's policy is paid by 
Allstate or State Farm or Nationwide. But in doing that, they 
not only abuse the homeowners; they abused every taxpayer. Has 
anyone in your organization taken the time to look and see how 
much of the costs that should have been borne by the Allstates, 
the State Farms, and the Nationwides were kicked over to be 
paid by the taxpayers? Because my hunch is you have not checked 
in one instance, and my hunch is that occurred in tens of 
thousands of instances.
    So given that we have another hurricane season coming, 
seeing how the insurance companies got away with that last 
year, that is going to become their mode of operations this 
year. They are going to blame everything on a flood if they 
can. So what are you doing to protect the taxpayers, No. 1, to 
try to correct what happened last summer by bringing some 
criminal charges against these guys but, above all, to see to 
it that it does not happen again this year?
    Mr. Foresman. Mr. Taylor, let me start first with the 
second question, and I am going to ask Bob, since he also ran 
the National Flood Insurance Program, to spend a little bit of 
time on it. And I am not begging off on this, but one of the 
important things to understand is that regulation of insurance 
industries is a predominant State responsibility.
    Mr. Taylor. Except for Federal flood insurance.
    Mr. Foresman. Absolutely. And so part of this equation 
comes back to the fact that one of the greatest lessons 
learned--and I got to tell you, I was in Dade County right 
after Hurricane Andrew, and this was an issue back then. And we 
have to make sure that we are working with the Governors of 
those affected coastal States to make sure that they have the 
right State statutes and laws in place, the right requirements 
are being placed by their State corporation commission or 
equivalents on their insurance companies that are doing 
business in the States.
    Now, with regard to the specifics cross-reference--and I 
will get Bob to get into the details, but this is part of the 
ultimate challenge that we run into with the National Flood 
Insurance Program because we have to essentially administer it 
through the insurance industry. And you raise a legitimate 
point that we have expressed concern about internal to the 
Department, and in the relative priority listing of things, it 
needs to be addressed. We need to take a closer look at it. But 
I will tell you, Congressman, that we have really been focused 
on some of the higher--it is a priority issue, but it is not as 
high a priority as some of the other life-saving things we were 
trying to get done for this hurricane season.
    But let me ask Bob to maybe put a little visibility on it 
as well.
    Mr. Shea. Thanks. Mr. Taylor, I think one of the challenges 
in this area is the National Flood Insurance Program has really 
got two major purposes to it. One is it is designed as a 
mechanism by which we can actually avoid costs for the Federal 
Government. It is designed to be a self-sustaining program, so 
it is intended that the premiums that people pay into the 
National Flood Insurance Program will eventually cover all the 
expenses.
    Now, in a year like the one that we just experienced, it 
frankly is going to be in the hole for a while, so the 
borrowing goes up. But it is not funded directly by any 
specific appropriation of Congress----
    Mr. Taylor. That is incorrect, Mr. Shea.
    Mr. Shea. I am sorry?
    Mr. Taylor. That is incorrect. We have bailed that program 
out. You have bailed out my constituents to the tens of 
billions of dollars this year.
    Mr. Shea. Through borrowing authority, yes, sir.
    Mr. Taylor. That is correct, which means the taxpayers went 
out and borrowed money from the Chinese to pay claims in 
Mississippi and Louisiana.
    Mr. Shea. But I have to tell you, I have also been there 
when the program came to its final conclusion and it was 
actually even with the Federal Treasury, and we had paid both 
the costs for the program and interest back as part of that 
effort.
    Mr. Taylor. Again, we are looking at next season, and on 
the second round, I am going to go after the MREs and the fuel. 
I already mentioned the fuel.
    Mr. Shea. OK.
    Mr. Taylor. But let's talk about--this is something that 
affects the Federal Treasury to the tune of tens of billions of 
dollars. This is something that in my mind, if I was from 
Kansas, if I was from Montana, if I was a budgeteer and I 
wanted to beat the Dickens out of my National Government and 
end a program, I would use the case of what I have just 
outlined as a case to kill Federal flood insurance, because you 
guys in not one single instance looked at what that claims 
adjuster from Allstate or State Farm or Nationwide or any of 
the other list, who was just doing a job for you on a fee 
basis, who has absolutely no reason to have the bill paid by 
his real employer, has every reason to stick you with the bill. 
And I don't know--I don't think you can name a single instance 
when you came back in all those tens of thousands of claims and 
said, ``Wait a minute. That was clearly wind damage. That is 
clearly State Farm's responsibility.'' In every instance the 
taxpayer got stuck.
    So if I am that budgeteer and I am trying to go after a 
Federal program, which, by the way, is extremely important to 
the people of Louisiana, Mississippi, and Texas, coastal 
America, which I don't want to see go away, but you guys are 
giving them the ammunition to kill that program by not being 
good stewards of the Treasury.
    So, again, that is water under the bridge. You need to be 
looking at what happened last summer, but now I have zero 
confidence that you have changed the rules one bit going into 
this summer. So we get stuck to the tune of tens of billions of 
dollars again when it happens, not if it happens.
    Mr. Shea. Congressman, don't mistake my comments--I am just 
trying to kind of lay the groundwork for where I think the 
program is right now. As my colleague Under Secretary Foresman 
indicated, there is an interest, I think, on the part of the 
Department of taking a good, hard, long look at all of this and 
trying to make sure. And I frankly think it is going to involve 
the Congress of the United States to look before it is all over 
with as well. And I think you have hit on the key issues. You 
have gone right after the issues.
    The second major purpose of that program, though, is to 
protect the economic vitality of communities.
    Mr. Taylor. I understand.
    Mr. Shea. And that is part of--we straddle a fence there, 
and it is a difficult fence to straddle. We do try and be good 
stewards. I know for a fact we send out third-party auditors, 
and we also have independent verification. We get Federal 
agencies to help us, indicate where high watermarks are so that 
we can make those determinations about which portion of this 
should be flood insurance and which should not be, which should 
go to the homeowner's insurance world. But it is a very 
difficult area, and I think it has been very vexing, at least 
from my perspective. I have been out of that business for 
almost 3 years now, but it is very vexing to watch what is 
happening, particularly in the Gulf Coast area, for everybody.
    Mr. Taylor. OK. For the record, I want you to name one time 
in Hurricane Katrina where the National Flood Insurance Program 
turned to a State Farm, a Nationwide, or an Allstate--just one 
time out of the tens of thousands of claims--where you said, 
``Uh-uh, you should be paying that claim, not the Federal flood 
insurance.''
    Mr. Foresman. Congressman, I think we owe you two things. 
You have raised a legitimate point here, and what I am going to 
suggest is that we give you a response for the record. Let us 
go back and get with the folks, because that may be correct, it 
may not be, and I just simply don't know in terms of that level 
of detail.
    And I think the other piece that we will bring back to you 
as well is, you know, what are we doing looking down the road 
in terms of some of the checks and balances, because Secretary 
Chertoff has made to Under Secretary Paulison a top priority to 
make sure that when we look at fraud and abuse, we are looking 
at it across the entire plethora. And there may, in fact, be a 
plan in formulation stages, but we will have to bring it back 
to you.
    Mr. Taylor. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Before I go to Mr. Clay, communications were a disaster of 
their own in Katrina. Have the States received their funding 
and guidance on improving their communications capability? And 
how will the National Guard's communications capability be 
deployed? And how will all these capabilities be integrated? If 
you would start, General.
    Major General Scherling. Mr. Chairman, the National Guard 
has improved its communication extensively since last year. 
First of all, I would say that every State has received an 
incident command package, which is a deployable communication 
package. In addition to that, the NGREA funds have funded us to 
enable us to purchase $55 million worth of communications gear 
for each of the States to enable them to have a communication 
bridge with the State and local responders. We think that is 
very, very important. It bridges DOD's communication capability 
with the State and local responders, can bridge up to 14 
different frequencies on a broad spectrum basis.
    We also have the ability for reach-back satellite 
capabilities as well as voice over Internet, voice and data 
over Internet, video teleconferencing, and additional radios. 
And so we would like to thank the Congress for enabling us to 
purchase sets for nine other hurricane States. We have six 
additional sets outside of the hurricane States that we can 
rapidly deploy in, and we are in the process of fielding the 
remainder of these sets throughout the rest of the year.
    Mr. Foresman. Mr. Chairman, if I might just add a little 
additional perspective to the General's comments, one of the 
things that we have done this year, as we had mentioned 
earlier, is we did not understand the architecture of State and 
local government and State and local government to the Federal 
Government in terms of communications. This was a basic thing 
that has been woefully inadequate for a number of years.
    We have put a combined team down there in terms of national 
communications systems, DOD active, the National Guard, FEMA, 
the Federal Communications Commission, a wide range of folks 
who have gone out and mapped the architecture down at the State 
and local level all along the hurricane-vulnerable States.
    One of the things that I would underscore is that, of that 
$18 billion that we have provided to States and communities 
over the course of the past 3 years under the State Homeland 
Security Grant Program, as well as UASI, a major portion of 
that has been available for communications, but it comes to the 
other issue of as a result of the Katrina experience, as a 
result of the mapping experience, as a result of what the Guard 
has been able to do on the military side, I think as we go out 
with this year's grants on communications, particularly those 
in hurricane-vulnerable States, we are going to be a little 
more prescriptive in the types of communications equipment that 
they can use those dollars for.
    Chairman Tom Davis. OK.
    Mr. Dickerson. Mr. Chairman, from a local standpoint, the 
General is correct. We do have in Mobile County an AC-1000 
interoperability communication unit. With that is six satellite 
phones. We have purchased in Mobile County an additional six 
satellite phones. I am taking the same concept of the AC-1000 
and putting it inside of my Emergency Operations Center. So 
there has been some improvement. Are we totally there? I am not 
sure if we are totally there yet or not, but there has been an 
awful lot of improvement over the last 6 or 7 months in 
interoperability.
    Chairman Tom Davis. Thank you. Was that paid for or any of 
that paid for by the Federal Government?
    Mr. Dickerson. Yes, it has been. It was.
    Chairman Tom Davis. Good. Thank you very much.
    The gentleman from Missouri.
    Mr. Clay. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I thank the panel for their participation 
today.
    My first question is to Mr. Foresman. You know, flooding 
was a major problem last year, and I would like to know what 
have you done to address the potential of severe flooding and 
particularly in the region in and around New Orleans. Can you 
give us a progress report on repairing of the levees?
    Mr. Foresman. Congressman, while I cannot give you a 
specific progress report on the repairs of the levee, leaving 
that to the Corps of Engineers, who is overseeing that, I thank 
you for the question because it brings up an interesting point. 
The unique nature of the New Orleans greater metropolitan area 
now is that literally by June 1st, we are going to have more 
than 100,000 travel trailers down there, a couple hundred 
thousands people, meaning in essence that even in a tropical 
storm force event, we are going to have a lot of people having 
to evacuate who previously, when we had substantial housing, 
would have been able to stay in their homes.
    We have embarked--and we offered to the State of Louisiana 
about 2 months ago, we said given the fragile nature of the 
coast, would it provide benefit to you all in the State of 
Louisiana to have a Federal interagency planning team to 
support an update of the five parishes essentially south of 
Route 10? They accepted that offer, and we have had a Federal 
interagency planning team down there helping them update not 
only their sheltering plan but their evacuation plans, looking 
at the communications issues. DOD, Guard, everybody's at the 
table. We are coalescing that group down there.
    What that is going to produce is an updated plan for those 
local parishes, an updated plan for the State, and a clearer 
understanding of where their capabilities are and where their 
capabilities may not be. And we want to make sure, whether it 
is through interstate mutual aid or whether it is through 
Federal resource supporting, that the State of Louisiana has 
sufficient capacity.
    Let me just give you a couple of numbers. Kind of the 
initial look at it, they have about 400,000 people that need to 
be sheltered. The State right now is having trouble getting 
past about 70,000 or 80,000 shelter spaces. So, you know, what 
is the solution? That is what the team is working through.
    They have about 189,000 people that they do not believe 
that they have the capability, either at the local or State 
level, to transport. And so what to do with that? And so the 
planning team is working through creative solutions.
    Of that 189,000, we have 7,000 special needs population, of 
which HHS is helping us look at that have medical 
complications. So the question that we are confronted with as 
the Federal Government is: Do we resource the movement of 
medically compromised patients out of the greater metropolitan 
New Orleans area? Or do we look at robust facilities in that 
region where the State and locals can shelter those folks? That 
team is working literally 18 hours a day, has been for a month 
and a half. We expect to have the draft plan in place by June 
1st, but, Congressman, I have to tell you that the fragile 
nature of the Gulf Coast presents a very, very unique challenge 
this year, and it is going to cause us to really push the 
envelope on a lot of policy issues. The big thing is we are 
going to have to make declaration decisions earlier and 
evacuation decisions earlier.
    Mr. Clay. And that leads me to my next question, and I 
would like to get this on the record. Who has the final 
authority over medical operations this hurricane season? Is it 
HHS, DHS, or FEMA?
    Mr. Foresman. Let me be very clear. Under the National 
Response Plan, the Department of Health and Human Services is 
our Federal ESF lead for health and medical issues. As to such, 
we will look to the Department of Health and Human Services for 
leadership and decisionmaking on health and medical issues 
under the broader context of the National Incident Management 
System and the National Response Plan for which we are 
responsible for coordinating.
    Mr. Clay. Thank you for that response.
    Mr. Shea, as you know, the National Oceanic and Atmospheric 
Administration predicts an above-normal hurricane season this 
year with as many as 16 named storms and the prospect of four 
to six of them becoming major hurricanes. How proactive have 
you been in establishing contingency contracts such as 
transportation, busing, and housing? Can you explain that, 
please?
    Mr. Shea. We have actually been very proactive in this 
arena, trying to make sure that we are in a readiness posture. 
I think the single largest step forward that we made was about 
a month ago we signed a Memorandum of Agreement with the 
Defense Logistics Agency, and because of their inherent 
capability to assume large contracting responsibilities on our 
behalf, we tasked--they fill the orders. They are basically 
cutting our overall concern and workload by over 50 percent. 
Nonetheless, we are putting in place with our partners in the 
Department of Transportation and other elements of the 
Government a whole series of pre-scripted mission assignments 
that ask for help wherever we need it. It could be 
transportation, it could be the provision of food, it could be 
whatever. And, in addition, we have additional contingency 
contracts for any of the areas that we are talking about--
water, ice, tarps, MREs, whatever you can think of.
    So we have a tiered back-up system available now to address 
all of those kinds of needs.
    Mr. Clay. Let me just say, since my time is up, Mr. Shea, 
that I just hope the actions that your Department and others 
take will be decisive this time. We all look back and do Monday 
morning quarterbacking about what we should have done with 
Katrina. But I just hope this time that we eliminate the red 
tape, the confusion, and the bureaucracy and make some decisive 
decisions and carry them out in order to save lives.
    Mr. Shea. We could not agree more, Congressman. We fully 
intend to carry out all responsibilities and in as aggressive a 
fashion as necessary, while we still respect the rights of the 
States and we still respect the unified command to try and make 
those decisions as early as humanly possible.
    Mr. Clay. So we have all learned something from Katrina, 
then.
    Mr. Shea. Yes, sir, we certainly have.
    Mr. Clay. Thank you very much.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Mr. Melancon.
    Mr. Melancon. Thank you, Mr. Chairman. I apologize for 
being late. I have been meeting with people that are affected 
by hurricanes back in Louisiana, 8 going on 9 months later.
    Back to the question of the trailers, what is the procedure 
or what is going to be the directive for the travel trailers? 
Are they going to be left behind, or are you going to require 
them to be hauled out in the event of a storm? Yes, Mr. Shea?
    Mr. Shea. Yes, Congressman, essentially I think the 
analysis that the Under Secretary described, working with the 
entire team down there to make that analysis to see what, if 
anything, needs to be done. But it is clear to us that, as an 
example, hauling those trailers out in advance of an impending 
storm is not a very sane way of doing business. So we are 
looking much more strongly at evacuation measures to get out of 
harm's way.
    Now, there is some mitigation work going on in terms of the 
trailers themselves, in terms of tying them to the ground and 
that kind of thing. But they are not places to be if you have a 
very serious storm approaching the coastline.
    Mr. Melancon. I am aware of that. There were, and I believe 
still are, about 10,000-plus trailers in Hope, AR. Are they 
still there? And if so--I talked to one of our parish 
presidents yesterday, and he still needs 1,000 or more, and he 
is not in New Orleans.
    Mr. Shea. Yes, there are still some 8,000 to 9,000 trailers 
that are in--they are actually mobile homes, is what they are. 
They are a little different than a travel trailer. They are a 
larger kind of unit. They are often more suitable for folks 
with disabilities. So we are trying to judiciously use them, 
but we also have needs to pre-stage them in other areas of the 
country. As an example, they are much more suitable for use in 
the Northeastern quadrant should we get colder weather and that 
kind of thing. They are stronger and better insulated for that 
kind of application.
    We are looking very hard at all the areas of the Gulf Coast 
area to see if any opportunity exists to place them in a usable 
place down there along the Gulf Coast, including Alabama, 
Mississippi, Texas, Louisiana, any of those areas. But one of 
the challenges is that some of the areas we are talking about 
are still subject to flooding conditions, and so you don't want 
to put people in harm's way by giving them a feeling of safety 
that they sometimes achieve in those types of units.
    So we are being very judicious in trying to look at that 
issue real hard, but wherever we can, we are trying to make 
good use of them. As we enter additional seasons, we are 
basically trying to be in a readiness posture. Our average 
annual use of mobile homes is somewhere between 3,000 and 
5,000, so it is probably maybe a couple years away before we 
are able to adequately use all those resources. But, again, we 
are exploring every single option in the way that we are 
looking at that situation.
    Mr. Melancon. After the storms in Florida, it is my 
understanding that as the trailers--the travel trailers, and 
maybe also the mobile homes, I am not sure--were put up at a 
public auction, put up for bid. And at the time that the storm 
hit, Katrina hit, and prior to Rita, I understand that some of 
the sales were being finalized rather than just take those 
trailers and move them immediately to Louisiana. I understand 
also that right now they are going through the process of 
bidding out the sales of the trailers. I mean, I think FEMA 
paid $5 million to gravel or limestone 200 and some acres so 
that trailers do not sink, and we are just going to sell them? 
I don't know, what are you getting, 30 cents on the dollar?
    Mr. Shea. No. There are times when in the application of 
this program we basically attempt to provide that resource to 
individuals. In other words, we will sell at a fairly 
reasonable price to individuals who have been living in them 
and who might be able to make use of those travel trailers or 
mobile homes. But if the situation you described is going on, I 
am not aware of it, and we will certainly look into it and see 
if there is an ongoing sale.
    A lot of the times when we are talking about these travel 
trailers, they are not really suitable for reconditioning and 
reuse in a lot of cases, and they do not have the capability to 
travel long distances. They just simply are not strong enough 
as a unit. So we are limited somewhat in our ability to be able 
to do that.
    Nonetheless, I think we are looking at every opportunity to 
make use of them that we can, and we are, in fact, exploring 
the possibility of purchasing additional travel trailers, but 
it is only an exploration as a contingency. It is not an 
intention to buy travel trailers at this point that I am aware 
of.
    Mr. Melancon. Do you by chance know what the inventory is 
of trailers, complete, travel and mobile homes?
    Mr. Shea. The mobile homes are primarily in Hope, AR, and 
as I said, there are between 8,000 and 9,000 right now. Most of 
the travel trailers that we are using are actually being 
produced on a case-by-case basis.
    The only purchase of travel trailers we have made of recent 
days has been within the last 30 days we were purchasing about 
300 that were compliant with the Americans with Disabilities 
Act for specific targeted audiences that we were trying to 
address.
    Mr. Melancon. I have a parish president that called, and he 
needs some 800 to 1,000 more trailers, and specifically he 
needs the ADA trailers.
    Mr. Shea. Yes, one of the things we are experiencing right 
now is that people believe that they are in a position to move 
back to some of these previously impacted areas. One of the 
triggers is when school ends, so the school year has ended for 
a lot of their children, and they are now thinking about it. So 
we are beginning to get more and more inquiries about the 
possibility of a travel trailer being available for their 
temporary housing needs.
    So we are trying to deal with those issues as well right at 
the moment. We do not have a real clear picture because this is 
just an emerging trend that we are beginning to see, 
Congressman.
    Mr. Melancon. Thank you. My time is up.
    I thank you, Mr. Chairman.
    Mr. Shays [presiding]. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I guess this should be addressed to Rear Admiral 
Vanderwagen. One of the most chilling things that we witnessed 
during Katrina was to see elderly people trapped in nursing 
homes and dying in America. And I was just wondering, where are 
we with regard to those kinds of situations for the future? We 
should never have to experience something like that.
    Rear Admiral Vanderwagen. Thank you, Mr. Cummings, for that 
question. I think one of the lessons learned was that the 
reality of people with special health needs was not something 
that had been planned for or addressed in a meaningful way. And 
this year our approach, depending upon where you are talking 
about, we know the GIS codes not only of all the nursing homes 
in the State of Louisiana, which is an extremely high-risk 
concern for us this year, but through the home health care 
agencies, through dialysis centers, other social support 
networks and working with parish officials, for instance, in 
Louisiana, we have identified who those at-risk individuals are 
and the locations of those individuals.
    We have developed a three-layer plan, working with the 
parishes, the State, and our Federal entities, to assure that 
the parish has the capacity to do what they need to do. If not, 
the State can fill in the gap, and if that cannot be covered, 
then we have the Federal capacity to fill in that gap.
    Part of the way we are going to know whether that is a 
problem is we are going to place people in the parish EOCs to 
assure that we have clear and timely understanding of whether 
or not that task is being addressed in a timely fashion through 
that process. So we think that we have learned a lesson in some 
large degree and that we are assuring that we have the proper 
number of ambulances, buses, identified triggers, if you will, 
that is, when is the system really going to need intervention? 
And we are ready to address that issue as aggressively as we 
possibly can because I am with you, that 2\1/2\ months I spent 
in Louisiana taking care of people, that was probably the most 
heart-breaking part of that for me.
    Mr. Cummings. One of the things that I noticed in my 
district, sometimes I--every year I take half a day and deliver 
these meals, Meals on Wheels. And it is always a very 
interesting experience because most of the people say that the 
Meals on Wheels people are the only people they see, you know, 
in a day, and they really look forward to it.
    What I am getting to is that you have so many people like 
the ones you talked about who may not be in a nursing home, may 
not be in a senior center. Tell me logistically--I know you 
said you have your layers, and that is significant. So just 
tell me logistically how you know that Ms. Johnson who lives on 
that road way up the way by herself, I mean, how do we know 
that she is--I mean, who--how do we know that she is OK? Do you 
follow me? It is one thing to have the systems in place but to 
make sure, you know, that the person does not fall between the 
local, State, or Federal cracks there.
    Rear Admiral Vanderwagen. Yes, that is why we tried to work 
with parish officials in the case of Louisiana and with those 
social support agencies that many of those people are quite 
dependent on--home health care, dialysis units, and the people 
who transport them to and from--so that in each parish we have 
identified the list with the GPS location, and we will proceed 
in a manner that looks at it as a checklist that has to be 
accounted for within specified timeframes.
    Mr. Cummings. OK. Mr. Foresman, much has been made of the 
broken chain of command at DHS with regard to its response to 
the hurricane. Confusion over whether DHS Secretary Michael 
Chertoff or FEMA Director Michael Brown should be the go-to 
person created unnecessary confusion. You may have already 
answered this, but how is the agency addressing that issue?
    Mr. Foresman. Congressman, thank you. One of the things I 
would offer, having been in this business for 20 years, there 
is absolutely no light between Secretary Chertoff and Under 
Secretary Nominee Dave Paulison. Dave is firmly engaged and 
involved. He and the Secretary have an ongoing and regular 
dialog, and Dave is showing through his leadership his 
commitment to be part of the DHS organization. And we, through 
the broader aspects of the Department, are showing our 
commitment to making sure that FEMA is successful.
    So I think this is an issue less of organization and 
structure and more of management and leadership. The right 
management, the right leadership are at FEMA. Secretary 
Chertoff is as skilled a crisis decisionmaker as I have met in 
20 years, dealing with Governors and senior Federal officials. 
And clearly there were issues across the Federal interagency 
with understanding of the National Response Plan, one of the 
things I mentioned earlier.
    Today, the Cabinet as we speak is participating in a 
hurricane exercise. That is not designed to replace what Robert 
Latham or Walter does down at the State and local level. It is 
designed to make sure that we have clarity and coordination at 
the Federal level to support our State and local partners out 
there. And I will tell you, Congressman, it is a different 
world, and I came in after Katrina, and I have heard all of the 
horror stories. I have heard them from both sides of the 
street. But we have an interoperable organization in terms of 
people, attitudes, and culture right now, and that is 
absolutely critical to our success.
    Mr. Cummings. Thank you.
    Mr. Shays. Thank you. The gentleman's time has expired. I 
am going to claim my time now and welcome all of you. I 
particularly want to thank you, Robert Shea. During Katrina, my 
staff and I were in contact with you during the height of that, 
and I knew you were juggling a hundred balls at the same time, 
but you were very responsive and tried to be helpful, and I 
thank you.
    I want to say as a member of the Katrina hearing, it was 
very clear from our report that we felt that the President at 
that moment and the administration was in a bit of a fog. We 
felt that, frankly, the Department of Homeland Security was 
missing in action. And we felt that FEMA, in terms of the top 
leadership, was derelict. And we had concerns also, as well as 
the Governor of Louisiana and the mayor of New Orleans.
    I had the feeling that what we wanted was we wanted the 
Department of Homeland Security to add value. I had the feeling 
that Mr. Chertoff--I do believe he is a very capable man--made 
a determination, let FEMA be FEMA, and so he just let it be 
FEMA without adding value to it, which was the whole point.
    And I would just say to you, Mr. Foresman, your comment 
that they are going to feel your breath if you think they are 
going to drop the ball, you are going to pick it up, is a very, 
very important thing for this committee to hear.
    I would like each of you very succinctly to tell me how you 
would characterize our state of preparedness. I do not want 
everyone to say, you know, we are ready now, we are more ready. 
But if anyone says we are ready, they are giving me a line. But 
I want to know how you would characterize our state of 
preparedness, if you could describe how it might be different 
than a year ago.
    Mr. Foresman. Mr. Chairman, I will start, and I will be 
clear and concise. The organizational structures between local, 
State, and Federal, between public sector and private sector, 
between civilian and military, are clear, concise, and 
understood. We are training. We are exercising. We are 
preparing together.
    Mr. Latham pointed out earlier that we have to do a better 
job of communicating some of these changes down to our State 
and local partners. But if I were to offer to you the overall 
assessment, we are never going to be fully ready because the 
risk continuum changes. But one of the things that I said 
earlier is that in my context, from the President all the way 
down to a local fire house, I am comfortable in saying that 
preparations for the 2006 hurricane season are a top priority, 
and the one issue that I mentioned earlier, Congressman--I just 
have to mention it--is the American public. We are only going 
to be as ready as the American public is.
    Mr. Shays. Mr. Shea.
    Mr. Shea. From my perspective, Mr. Chairman, I think we are 
closer to being ready than I have ever seen in the context of 
my entire career in FEMA, and that has been spanning since 
December 1979.
    Mr. Shays. Describe to me what ``ready'' means.
    Mr. Shea. Well, I think we have looked across the entire 
spectrum of issues which confronted us and, frankly, defeated 
us last year. And I think we have taken actionable steps to 
address them. It is not a perfect picture and we are not 100 
percent by any stretch of the imagination. But when I feel the 
need to consult with someone in the Department to get support, 
I don't hesitate to pick up a phone and call. And Mr. Foresman 
and I have worked some issues together because of the strength 
of those relationships that we have.
    Mr. Shays. Thank you.
    General.
    Major General Scherling. The National Guard has improved 
its situational awareness through increased communication 
capabilities and interoperability to bridge that gap between 
the State and locals and our DOD forces. In addition to that, 
we have worked with each of the States in an extensive planning 
effort with the Adjutants General and their staff to determine 
which capabilities that they have, that they would require 
during the hurricane season. We have measured those 
capabilities. We have determined which States might be missing 
capabilities due to deployments in Iraq----
    Mr. Shays. Is that all 50 States?
    Major General Scherling. Sir, primarily the hurricane 
States.
    Mr. Shays. OK. Thank you.
    Major General Scherling. And we have looked at those States 
to determine whether the shortages and gaps might be relative 
to deployments with Iraq or Afghanistan. And, in turn, we are 
actually looking for support from the supporting States at this 
point to fill those gaps.
    So our plan right now has been extensive, and we are 
sharing that information with NORTHCOM and with our interagency 
partners.
    Mr. Shays. Thank you, General.
    Admiral.
    Rear Admiral Vanderwagen. Thank you, Mr. Shays. I would 
say--and I am echoing some things that you have heard already 
from others, I suppose. But I think that this culture of 
preparedness and the acceptance that we not only have a mission 
to perform certain day-to-day activities that are part of our 
responsibility in the health arena, but we have a mission to be 
responsive and to be as prepared as we can be to meet needs of 
people in disasters. That is a major change of thinking in the 
way I think some of us in the Federal health partnership have 
looked at it.
    Second, I would say that we are about as actively engaged 
with the partners as they can possibly stand, both on the 
Federal level but as well on the State and local level. There 
is about this much more that they are going to tolerate of us 
being engaged.
    And, last, I think we have taken a much more comprehensive 
responsibility for an analysis of what the health missions will 
and must be and not just viewed it as simply the first 3 to 5 
days of emergency response, but looked at the full spectrum of 
health needs that we need to be prepared to address across a 
longer-term event, as we have lived with in Louisiana.
    Mr. Shays. Thank you, Admiral. My time is ending, so I 
would like fairly short--and you all have been great at trying 
to be succinct. Thank you.
    Mr. Latham.
    Mr. Latham. Mr. Shays, when you talk about being ready, 
certainly that is something that is hard to define, but I think 
you are talking about leadership, coordination, communication, 
and the resources. And all of those areas have been improved 
significantly. Mississippi has not waited around to fix some of 
the problems. We have stepped out on our own. We are doing many 
of the things that we should have done before Katrina. We are 
much better prepared this year than we were last year, but we 
feel that because of the steps that George and Dave Paulison 
and our Federal partners are taking that we are going to be 
even that much more better prepared. But I think we are so 
focused on certainly hurricane season, because it is the most 
impending risk right now. We have to look at the possibility of 
something in the central United States in the New Madras 
Seismic Zone or something else. So we have to be careful that 
we do not focus too much on the hurricane season.
    Mr. Shays. Thank you.
    You will end up, Mr. Dickerson.
    Mr. Dickerson. Yes, locally we have--in Mobile County, we 
have accomplished much. We still have a ways to go. We know 
that. We have taken some initiatives on our own, such as 2 
weeks after Hurricane Katrina, we put an Evacuation Task Force 
in place. It has made us--already we have 15 pick-up stations 
set up for evacuations of those who don't have the ways and 
means to do so. We have coordinated with local agencies, State 
agencies, and Federal agencies as far as buses are concerned. 
We have identified shortfalls. How many forklifts will we need? 
How many personnel, how many security forces will be needed, 
not just post-storm but prior to the storm making landfall?
    Again, I want to emphasize we realize in Mobile County the 
National Hurricane Center may tell us it is a Category 2 storm, 
but if you live in Dauphin Island or Bayou La Batre, it is a 
Category 4 storm. And there are 56,000 people that live in that 
area that we have to make sure that they are taken care of.
    Mr. Shays. Have you made sure that Mr. Taylor has a house 
yet?
    Mr. Dickerson. Yes.
    Mr. Shays. Still living on the street, Mr. Taylor?
    Mr. Taylor. Still freeloading off my brother.
    Mr. Shays. OK. Thank you all for your response.
    Ambassador Watson.
    Ms. Watson. Thank you so very much, and if you have 
addressed this issue, please let me know, and I will go on to 
my next issue. But after Katrina, FEMA and other Federal 
agencies hastily entered into massive contracts worth millions 
of dollars, waiving competition and failing to negotiate money-
saving provisions. The result was that contracts squandered 
taxpayers' dollars on a massive scale, and we all know about 
the Carnival Cruise ships that cost about $8,000 per person per 
month.
    So to avoid such waste and abuse, the House Select 
Committee that investigated the Katrina response recommended 
that FEMA negotiate contingency contracts that can be activated 
when needed after a disaster. After DHS and FEMA procurement 
officials agreed that contingency contracts should be in place, 
it is not clear what FEMA has entered into ahead of the 
hurricane season so that essential services like buses for 
transportation--I heard some reference to different modes of 
transporting people, but what contingency contracts do you have 
in place today? And, also, can you better explain why we 
purchased all those mobile units and left them in place without 
checking to see if they were suitable or if the land was 
suitable to place them on? Because when we were down in 
Mississippi, we heard from a minister who said she had 8 
acres--this is in Mississippi--and they could place as many 
mobile units on her property as possible.
    So I would just like to know, didn't you search that out 
before you actually purchased those mobile units and left them 
in the mud in Hope, AR, and other places where I understand 
they are still sitting, Mr. Shea?
    Mr. Shea. Yes, that is correct, Ambassador Watson. As I 
said before, there are about 8,000 to 9,000 units still in the 
Hope, AR, area that were staged there as a staging point really 
for delivery eventually. There were mistakes made early on.
    What happened was we began forecasting early into the storm 
about the number of impacted individuals, and we used models 
that we had been traditionally comfortable with in terms of 
that. And it forecasted the needs that are now clearly higher 
than they actually turned out to be. So that is one of the 
reasons why we are where we are today.
    A lot of that was done, as you said, with noncompetitive 
contracts. When I came back to FEMA, which was in late February 
of this year, my boss, David Paulison, gave me the charge to 
help clean that area up. And so I worked very strongly during 
that period of time to not enter into any other noncompetitive 
contracts, and, in fact, we have not.
    The other thing that we did was we brought in one of the 
leading experts in the Federal Government on acquisition, 
Deidre Lee, who was with the General Services Administration, 
came over as Deputy Director of Operations and Chief 
Acquisition Officer. And so we have taken that situation and 
begun to turn it around. We do not have all the contracts in 
place, and part of the reason for that is that we are going 
through a very strong competitive process to make sure that any 
contracts that we put in place have been fully competed. In 
fact, even when we rely on other Federal agencies, that is one 
of the things that we are seeking from them, is commit to us 
that you competitively awarded the contract that you will be 
using to support FEMA with this year.
    So we are taking every measure I know of to be able to 
address that. There were clearly mistakes made. There is no 
question about that, and there is no going back on that. In 
terms of the specifics of the minister you were dealing with, I 
would be happy to look into that situation and see if there 
were some possibility of the use of mobile homes on a group 
site as an example. We would be happy to look into that. We are 
trying to find legitimate uses for all those mobile homes, and 
if we can do that and accommodate the temporary housing needs 
of some folks in that area, we would sure like to be able to 
help.
    Ms. Watson. Well, we were with Mr. Taylor down in 
Mississippi, and he showed us where a contract was given to put 
a pole up, and another contract was given to run a wire up, and 
another contract was given to run a tube up to provide 
electricity and heating and taking refuse out and bring water 
in. Three different contracts to three different businesses, 
and some of them didn't work on weekends and some of them 
didn't work after 5 and some of them weren't given work 
assignments. A total waste.
    So I have to be convinced that we have contingency 
contracts and plans out there, because we are just a few months 
away--a few weeks away from another season, and if things go 
climatically like they have been going, we are going to have 
another hurricane as powerful.
    All right. Let me ask you another question----
    Mr. Shays. May I just say that the gentlelady's time is up. 
I would like to get to Mr. Duncan if I could.
    Ms. Watson. OK, and I hope that in the response, if I can 
just throw this out, maybe someone can respond.
    Mr. Shays. Sure.
    Ms. Watson. But why should we not pull FEMA out and make it 
its own standing agency like it was before under its own 
Cabinet Secretary so it could fulfill the mission of emergency?
    Mr. Shays. Would you allow me to answer that? [Laughter.]
    Mr. Duncan, you have the floor.
    Mr. Duncan. Well, I will let the gentleman from Homeland 
Security and the gentleman from FEMA respond to Ambassador 
Watson's question. I would be interested in that also.
    Mr. Foresman. Congressman, thank you. Three reasons, and, 
Congresswoman, you know, in deference to time, I would say I 
would like for you to take a look at the oral statement, 
because one of the things that I highlighted in my opening 
statement is the fact that our preparedness model--and I have 
been doing this for 20 years. I started at the local government 
level, the State government level, now at the Federal level. 
For the past 20 years, we have had a problem with preparedness 
in this country. We have known about the New Orleans problem 
since the early 1990's, yet we were not ready for it in 2005.
    Part of what I would offer is I think one of the things 
everybody needs to realize is that FEMA was made an honorary 
Cabinet organization in February 1996. I was at the National 
Emergency Management Association Conference. It was not a 
statutory codification. And it did not change FEMA's 
relationship with the Federal interagency. It did not change 
FEMA's relationship with the States and the communities. And 
FEMA carried their good relationship with the States and 
communities to the Department of Homeland Security.
    But, arguably, part of what Secretary Chertoff has 
attempted to do with the Second Stage Review, he said in July, 
prior to Katrina, that this Nation was not ready for a 
catastrophic event and that our old preparedness model where 
FEMA had a piece of the preparedness pie, if you will, was not 
working, was not getting us where we needed to be from a 
catastrophic standpoint. And he said we need to amalgamate 
preparedness functions so that we can leverage the support that 
we provide to States and communities. We need to be able to 
leverage our planning, our training, and our exercising, not 
only across FEMA but across the Coast Guard. They have a 
preparedness function. The Secret Service does. DOD does. HHS 
does. And, frankly, the goal here was to create a structure 
where we did not react to the last emergency or disaster.
    I said earlier Hurricane Andrew, 1992, same lessons we 
learned with--many of the same lessons with Hurricane Katrina. 
And what it comes down to is the fact that we have never 
learned the lessons of the past. We have documented the lessons 
of the past. The idea with the creation of the Preparedness 
Directorate was to allow and to ensure that we have a focused 
effort that units funding to the State and locals, our private 
sector partnerships, and our forward-looking vision that does 
not get interrupted every time we have an emergency or disaster 
to have to be able to respond to it.
    We have not taken FEMA out of preparedness, nor have we 
taken preparedness out of FEMA. When I was given the mission to 
make sure that New Orleans--that we provided additional 
resources to them for the upcoming hurricane season, given the 
fragile nature of the coast, I went to FEMA. They have a 
presence down in New Orleans. And we mission-assigned it 
through FEMA and put Coast Guard, HHS, Transportation folks 
down there.
    So I got to tell you, with all due respect, I was here in 
the 1990's. FEMA is a great organization. They were a great 
organization back then. But our preparedness focus back then 
was no better than it was prior to Katrina. And we have to find 
a new model that allows us to deal with the full range of 
hazards, and that is really what we have attempted to do.
    Mr. Duncan. Well, thank you, Secretary Foresman. Before all 
of my time expires on Mrs. Watson's question, let me just say 
this: I am sorry I was not able to be here because of other 
meetings for your testimony, and maybe some of this you have 
covered. But she actually raised another point that I really 
wanted to get into, and I am not going to ask any questions, 
but I will say this: You know, I had the privilege of leading 
an 11-member delegation down there, I don't know, 6 weeks or a 
couple months after all this happened from the Transportation 
and Infrastructure Committee, and we met with Admiral Allen and 
all the top officials. Frankly, we saw the worst damage in 
Mississippi, worse than in New Orleans. But what I am really 
hoping is something that Ambassador Watson got into, and that 
is that I have never--I grew up in a political family, and I 
have been in this job for 18 years now. I have never seen an 
issue flip so fast as all this business about Katrina did, 
because for the first 3 or 4 weeks there was such a--there was 
a tremendous outpouring of sympathy, more so than anything I 
have ever seen. Every fire department, every police department, 
the schools, companies were sending people down there or things 
down there, and I guess just billions of dollars worth of 
private aid and man-hours and the goods and so forth were 
donated. But then very quickly, almost overnight, people 
started thinking that maybe we had devoted too much money too 
fast without watching where it was going. Editorial writers 
around the country started criticizing us.
    For instance, I got a call from the head of a trailer 
manufacturing company in Tennessee who said that his company 
was manufacturing a large number of trailers for FEMA, but they 
were having to go through some middleman who was just doing 
nothing but adding $4,000 to the cost, when, he said, some 
official from FEMA could have picked up the phone and called 
him, and they would have dealt directly with them and could 
have saved millions of dollars.
    Then we would hear about these trailers that were not being 
used, and then a few weeks ago, we had this hearing in another 
subcommittee of this committee about some contractor that was 
just getting ridiculous rip-off profits, while other 
contractors that would have done the work cheaper could have--
were being ignored. And most of us spend more time at home than 
we do up here, and we get hit at the drugstores and the ball 
games and every place we go, all the events we go to, with all 
these scandal stories. And people are really disgusted about 
that, and that is what we need to work on.
    You know, my Dad told me years ago about something else. He 
said everything looks easy from a distance, and that is so 
true, and I know you all have a difficult job. But what I hope 
is that we will get ready for this next time so that we do not 
have these scandal stories, so that we do not have to go 
through these middlemen when some employee of your Department 
could pick up the phone and just call these companies directly 
and save millions of dollars with one phone call.
    We need to use a little common sense about these things, 
and then, too, we need to learn a lesson, look at these 
contracts and see did these companies--were they reasonable? 
Did they make a rip-off profit? If they did, let's don't deal 
with them. Let's deal with some of these other companies that 
will treat the taxpayers a little more fairly.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you, Mr. Duncan.
    Let me just ask, in a catastrophic incident, evacuation of 
the population can be critical. We found that in New Orleans. 
If we had better evacuation, it would have not been near the 
intensity, near the loss of life, loss of dollars and 
everything else. Have the State and local governments improved 
their evacuation plans? Does the new trailer population present 
new problems in evacuation? And is DHS/FEMA satisfied with the 
evacuation plans? Have there been exercises?
    Mr. Foresman. Congressman, let me start, and Bob may have 
something to offer.
    It underscores the issue that evacuations are predominantly 
State and local responsibilities on the front end and on the 
back end. And one of the things that should not get lost in all 
of the discussion is we did a fabulous job evacuating 1.3 
million folks from the Gulf Coast out of harm's way in advance 
of the storm. And as tragic as the near 1,300--or more than 
1,300 losses of lives were, it could have been far greater had 
the State and local officials not had in place viable 
evacuation plans.
    But as we mentioned earlier, as we met with Governor 
Barbour, Governor Riley, Governor Blanco, Governor Perry, 
Governor Bush, and others--and we have talked about this--the 
Governors are intensely focused on making sure that where they 
have contra flow evacuation plans, if they had problems with 
them last time, that they have fixed those problems. And I have 
a strong degree of confidence in those evacuation plans, with 
the exception of two areas: one, given the fragile nature of 
Louisiana and the impact on the infrastructure and the 
displaced population, I think we are going to be challenged 
there, but we are working very aggressively on that. And the 
other area, Mr. Chairman, we have not had a significant event 
up on the northeastern portion of this country of ours as it 
relates to a hurricane. Clearly, with all of the predictions, 
we are looking at it, and there are a number of scenarios up in 
the Northeast where we are going to work closely with those 
Governors, with the National Guard, with those State emergency 
management officials, to make sure that we are as good as that.
    But one of the things we learned from Floyd and Isabel and 
a whole bunch of others is that States have put a lot of 
emphasis on hurricane evacuation planning traditionally, and it 
has been one of the least weak areas in our national 
capability.
    Chairman Tom Davis. During the recent tabletop exercise, 
the Department of Energy indicated responsibility for providing 
portable generators--that it was not their responsibility, but 
no other agency stepped forward to take the mission. What is 
the story?
    Mr. Foresman. Well, I am not sure which exercise. And, by 
the way, Mr. Chairman, I was passed a note earlier. 
Congresswoman Norton mentioned the possibility of a hurricane 
strike on the Gulf Coast. That is a fictitious exercise that we 
are doing, and that is what she was referencing, and I want to 
make sure that we are not creating any stir there.
    But with regard to the exercise, this is one of the nuances 
and why it is important for people to understand the plans. You 
would say, well, generator, that provides energy; therefore, it 
must be Energy ESF function. That is something that you are 
going to go to the resource function, the emergency support 
function, GSA, DOD, a host of--well, FEMA, as a matter of fact, 
has 829 good-size generators in its stockpile. So that is the 
whole point of the exercises so that when someone says, ``It is 
not mine,'' we clearly make sure that those folks who are 
responsible for making resource allocation decisions know whose 
it is and that we do not say to our State and local partners we 
do not have an answer because--you know, we are the responder 
of last resort and we need to be capable of servicing it either 
through Government inventory or contracts.
    Chairman Tom Davis. Any other Members have questions? If 
not, I want to thank this panel. I want to thank you for 
answering the questions. And we will take----
    Mr. Taylor. Mr. Chairman, just one thing.
    Chairman Tom Davis. Mr. Taylor.
    Mr. Taylor. Earlier today I had a chance to visit with Mr. 
Latham. Let me thank you for the great job you have done. It is 
my understanding you are going to retire fairly shortly. You 
mentioned to me your frustration that Congress and the 
administration had cut the Emergency Management Planning 
Grants. Could you give us some for-instances of how that would 
affect you, Mobile County, the Louisianans, and why it is so 
important to you?
    Mr. Latham. Thank you, Congressman Taylor, and before I do 
that, first I would like to thank you for both of us that had 
the opportunity to be in the trenches and the foxholes together 
immediately following Katrina, and I can tell you that your 
constituents should be very proud of you because you have 
certainly been a staunch supporter of the needs on the 
Mississippi Gulf Coast. And it has been an honor and privilege 
to serve with you, and I hope I can continue to help where I 
can.
    The Emergency Management Performance Grant is absolutely 
the only grant that is provided to State and local emergency 
management offices to support emergency management. In 2000, 
when I took this job, half of our counties had an emergency 
management director. Half. Now, what do you think happens in a 
county when you have a disaster or something as small as a 
hazardous material spill on the interstate or a train 
derailment or something? Who do you think handles that if there 
is nobody there to do that?
    Two consecutive years since 2000 we were able to get some 
very minor increases in the EMPG, and using that EMPG we have 
provided funding to those other counties, and as of last week 
every county in our State now has an emergency management 
program because of the EMPG. It is the single greatest 
multiplier to developing local and State capability of anything 
I can imagine. It requires a dollar-for-dollar match, either 
from the State or local governments. So what better investment 
is there of the Federal dollars when there is a State and local 
investment in how you spend that money?
    And I don't know of any grant that has done more to build 
that capability, but I don't know of any grant that could do 
more. If we build a strong local and State capability, then 
there is less of a reliance on FEMA and the folks at DHS. And I 
think we can do it cheaper by investing the money before the 
event. Because if we do not do it and if we do not have that 
capability at the State and local level and there is a void 
there and there is a collapse of the local system, then the 
Federal Government will have to respond, and it will be costly. 
So why not invest the dollars on the front end so that we do 
not have to spend as much on the back end. Who do you think 
goes and talks to the schools, the Rotary Clubs, the Lions' 
Clubs, and all of those people who can have an impact on local 
preparedness? It is the local emergency management director. 
That is where we should be investing our dollars.
    Thank you, Congressman.
    Mr. Taylor. Thank you.
    Ms. Watson. Mr. Chairman, I have a letter I would like 
included in the record, and what it is, it is supporting the 
role of nonprofit clinics in major disaster areas, and they are 
requesting that they be a part of the current disaster response 
system. And I understand they are not included in it, so I 
would like to submit it for the record.
    Chairman Tom Davis. Without objection, it will be put in 
the record.
    [The prepared statement of Hon. Diane E. Watson and the 
information referred to follow:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Tom Davis. I am going to again thank this panel. 
You have been very helpful to us.
    We will take a 2-minute recess and convene our second 
panel.
    [Recess.]
    Chairman Tom Davis. We have a great second panel. We have 
Maura Donahue, who is the chairman of the Board of Directors of 
the U.S. Chamber of Commerce. Maura, Thank you very much for 
being here with us today.
    Joe Becker, the senior vice president, preparedness and 
response, American Red Cross. And Patricia McGinnis, the 
president and CEO of the Counsel for Excellence in Government.
    You know it is our policy, we swear you in before you 
testify, so if you would just please rise and raise your right 
hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Ms. Donahue, thank you for being with 
us.

    STATEMENTS OF MAURA W. DONAHUE, CHAIR, U.S. CHAMBER OF 
 COMMERCE; JOE BECKER, SENIOR VICE PRESIDENT, PREPAREDNESS AND 
RESPONSE, AMERICAN RED CROSS; AND PATRICIA McGINNIS, PRESIDENT 
  AND CHIEF EXECUTIVE OFFICER, THE COUNCIL FOR EXCELLENCE IN 
                           GOVERNMENT

                 STATEMENT OF MAURA W. DONAHUE

    Ms. Donahue. Thank you very much, Mr. Chairman. Good 
afternoon, Mr. Chairman, and members of the committee. I am 
Maura Donahue, Chair of the Board of the U.S. Chamber of 
Commerce, and president of DonahueFavret Contractors Holding 
Co. in Mandeville, LA.
    On behalf of the U.S. Chamber of Commerce, the world's 
largest business federation, representing more than 3 million 
businesses, I am here to offer recommendations on how to 
prepare for the 2006 hurricane season.
    The Chamber and the U.S. business community stand ready to 
support, as appropriate, local, State and Federal Government 
disaster responses. The Chamber's recommendations for disaster 
preparedness and response are centered on three key principles: 
information, communication and collaboration. The first two, 
information and communication, go together. We must enhance 
communication and the flow of timely and accurate information 
to the general public among Federal, State and local government 
agencies, and between the Government and the private sector.
    With regards to informing the public, the U.S. Chamber, its 
members and their individual company networks, support the 
Department of Homeland Security's preparation and mitigation 
awareness campaign known as ``Ready.'' The Chamber has 
preparedness information posted on its Web site, and it shares 
such information with the entire chamber federation through 
various communications channels. The key to an information 
campaign is frequency. DHS needs to continue to communicate the 
importance of preparedness over and over again. Also, the 
Government should streamline how it communicates information 
about damage assessments and disaster assistance needs to the 
private sector.
    During the Katrina and Rita response periods, FEMA, the DHS 
private sector office, the Department of Commerce, USA Freedom 
Corps, SBA and the Department of Education, all held their own 
private sector briefings. With so many agencies involved, 
communication was not always clear and consistent. We suggest 
that the Government establish an information-sharing protocol 
that ensures coordination among Government agencies. A separate 
protocol needs to be worked out to protect privacy and 
confidentiality while allowing refugees and evacuees to gain 
access to medicines and fill other needs while they are in 
temporary shelters.
    While enhanced communication and information are crucial 
first steps to better preparation and response, they are 
pointless without greater collaboration between the public and 
the private sectors.
    We commend DHS for taking steps to integrate the private 
sector in Government response and recovery planning. Chamber 
members are participating in five DHS regional hurricane 
preparedness exercises, and are also participating in a series 
of terrorism related exercises known as TOPOFF.
    But we need to take additional steps. The Chamber has 
identified a number of ways to improve public-private 
collaboration, and I would like to just mention a few of them 
right now.
    First, DHS should regularly consult with the private sector 
to understand what assets and capabilities the private sector 
can contribute to immediate and long-term response efforts, 
capabilities such as logistics and inventory management.
    Second, the Government should require States, as a 
condition of DHS funding, to demonstrate how they are 
integrating the private sector into State planning exercises 
and training.
    Third, the Government and the private sector should team up 
to build a jointly managed Federal disaster aid registry. This 
system should specifically include the recovery needs of 
businesses and should be co-managed by a private sector entity. 
The Chamber's nonprofit affiliate, the Business Civic 
Leadership Center, managed such a registry during Katrina and 
Rita to great effect, matching donations from across the 
country with needs in the devastated region. Building a single, 
national registry would be appropriate, and we urge DHS to 
begin work on that immediately.
    Fourth, we recommend creating an Assistant Secretary 
position for Private Sector Preparedness and Response 
Coordination at DHS. The Assistant Secretary would coordinate 
with the private sector to ensure business integration into 
preparedness, mitigation, response and recovery efforts at the 
State and Federal levels. The Assistant Secretary would lead a 
team that would be operational in nature, and would outreach to 
the private sector before, during and after a disaster.
    Finally, to ensure the revival of communities following a 
disaster, we believe strong consideration should be given to 
creating what might be called the Red Cross for Business. While 
humanitarian agencies such as Red Cross are extremely important 
for assisting individuals, we must build capacity to restore 
entire communities. We must ensure that people have 
infrastructure and jobs to go back to, and that requires a 
rapid recovery by the business community.
    The existing menu of Federal programs, such as the Small 
Business Disaster Loan Program, simply is not up to the task of 
expeditiously providing the necessary assistance in the wake of 
a large-scale disaster such as Katrina.
    Mr. Chairman and members of the committee, the start of the 
hurricane season just days from now is a reminder to all of us 
that we are not truly prepared for the next disaster. We must 
take practical, concrete steps now to avoid more chaos, 
destruction and suffering later.
    I will say to you that I was born and raised in New 
Orleans, LA, and proud of it. Hurricane Katrina and Rita dealt 
us a serious blow in the Gulf Coast, and what an appropriate 
year for me to serve as Chair of the U.S. Chamber of Commerce.
    Have you on the committee visited the region? Has everybody 
visited the region? Congressman Melancon lives there, and so do 
you, Congressman Taylor. Thank you.
    The one word that people come away with from visiting the 
region is it's overwhelming, and 10 months later it is still 
overwhelming. And we encourage anyone who has not been in that 
region, to go to the region and visit. It is unbelievable and 
it is overwhelming. We know recovery will be slow. We expect 
recovery could last as long as 10 years.
    Emergency preparedness and planning for the private sector 
is crucial. Many businesses and small businesses had emergency 
preparedness plans, but the assumption made in many of those 
plans was an intact infrastructure. One of the first things 
many plans called for was enacting the phone tree to make sure 
their employees were OK. The big surprise was there were no 
communications, the cell towers were down. There were no 
communications. That entire area felt a feeling of isolation 
from the rest of this country.
    We tell people who do not have an emergency preparedness 
plan for their company, shame on them. We tell those who do 
have a plan for their company, they need to rethink it because 
they probably made assumptions of that critical infrastructure 
that we did not have during Katrina and Rita. But it also 
brings to light the fact that it is not only important for the 
private sector businesses to be prepared by themselves for an 
emergency, it also brings to light the fact that the local, 
State and Federal Government were not prepared for the 
disasters of this past hurricane season.
    Let me add in here that the private sector did step to the 
plate during this season with $1.2 billion in contributions and 
donations.
    Our message to the evacuees from that region are, come 
home. We need you to help us rebuild our communities.
    Our message to the rest of the Nation is: don't forget us. 
Don't forget us. Don't go on to the next disaster because we 
will be a long time repairing. We are coming back. The Gulf 
Coast is tenacious. We will come back better than before, 
probably smaller but better, but we have some broken systems, 
public housing, health and education. But the tragedies of this 
past hurricane season present us with a handful of challenges, 
but also a great opportunity to come back better than before, 
and that, we guarantee, will happen.
    This needs to be a wake-up call. The last hurricane season 
needs to be a wake-up call to the rest of this Nation, that 
this is not just about hurricanes. This is about emergency 
preparedness on the local, State and Federal levels for any 
emergency that happens across this country, or disaster. This 
could happen in California next in the form of an earthquake. 
We need to be prepared.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Donahue follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Thank you very much.
    Mr. Becker.

                    STATEMENT OF JOE BECKER

    Mr. Becker. Good afternoon. My name is Joe Becker, and I 
lead the American Red Cross Disaster Service, preparedness and 
response, and I thank you for the invitation to be here to 
share what we learned from Hurricane Katrina and what we're 
putting in place, and I was also asked to share about our 
responsibilities in the National Response Plan.
    The Red Cross placed two important roles in time of 
disaster, one that's well understood by most Americans, and one 
that's more difficult to explain. The first role, we serve 
people in time of need. We serve victims of disasters every 
day, about 70,000 a year, from a house that burns, to the 
current New England floods, to very large disasters.
    What do we do? We feed, we shelter, we give away the items 
that people need to start their recovery, toiletries, clean-up 
items. We provide small amounts of financial assistance to 
cover those things best not given away. We provide mental 
health counseling. Our nurses provide first aid and address 
minor health issues, and we help unite families with their 
loved ones. We help people recover.
    We do this in partnership with a large number of nonprofit 
organizations, each with their specific missions. This is 
pretty well known, and America very generously supports our 
work in this.
    You asked me to speak about our second role. In the 
National Response Plan we are the primary agency for Emergency 
Support Function 6, the mass care part of the NRP. Emergency 
Support Function 6 is mass care, housing and human services. 
The Red Cross is primary for mass care. FEMA currently is 
primary for housing and human services, and FEMA is the 
coordinating agency over all three.
    In the words of the plan, this means that we coordinate 
Federal mass care assistance in support of State and local mass 
care efforts. That means we work within the Federal Government 
structure to help bring resources from Federal agencies to 
States. Under our role in Emergency Support Function 6, our Red 
Cross staff in that function, don't manage or direct service 
delivery. They don't manage and direct Red Cross service 
delivery, or that of the other folks in mass care. We don't, 
obviously, direct State or local governments.
    Rather, in that role, we act in an administrative function. 
We receive requests from States or other NGO's, and we work 
them into the FEMA systems. FEMA then assigns them to other 
agencies as mission assignments, as you know. The Red Cross 
doesn't give mission assignments, nor are we given mission 
assignments. We're not a Federal agency.
    We also relay mass care information from the ground to all 
levels of State, local and Federal Government, to make sure 
that people have appropriate information to make good 
decisions.
    Our role in Emergency Support Function 6 in the National 
Response Plan has been cause of a lot of confusion, 
particularly since Katrina. Many have assumed that in that role 
we command and control the mass care of the country. We tell 
other organizations where to serve, how to serve, when to 
serve, churches, the Southern Baptists, the Salvation Army. 
That is done on a very local, local level, as you heard from 
the first panel, not the Federal level. Our NRP role is much 
more limited. We serve in that administrative capacity.
    Since Katrina, we're working to better clarify expectations 
because we understand that role needs to be performed very, 
very well, and the close partnerships are the key.
    Back to our first role of serving people in disasters. We 
learned a lot last fall. We're proud of the work that our 
volunteers did, but we know that we need to do more. Since then 
we've undertaken a long list of critical projects, many of 
which are outlined in my written testimony. But to sum them, 
we've been about two things, short term and long term.
    In the short term we're dramatically increasing our 
stockpiling of supplies by prepositioning in hurricane prone 
States and other disaster prone States the supplies that it 
would take to feed and shelter 500,000 people over a 6-day 
period, what it would take to meet their needs until the supply 
chains could be resurrected. That's buying another half million 
cots, half million blankets, 6 million prepackaged meals, all 
the things that we need to care for the people who have nowhere 
else to turn.
    We're also rebuilding our IT systems, one of the areas we 
stumbled last fall. If you add up all four storms that hit 
Florida in the 2004 season, we provided financial assistance to 
about 73,000 families. In Hurricane Katrina we provided 
financial assistance to over 1.3 million families, more than 
$1,000 a family, but it took us too long. It took us about 7 
weeks to do all the detail of that because our systems weren't 
big enough. In the next weeks, we will have rebuilt those 
systems to handle up to 2 million cases, and we will have 
created new cost centers to handle 100,000 cases a day, or meet 
the needs of a million families over a 10-day period of time.
    We intend to use those call centers only in a catastrophic 
disaster. We want a family to be served by a volunteer working 
with them directly, not just about the money, but making sure 
that we're meeting their mental health needs, meeting their 
health care needs, getting them into the FEMA system, tying 
them into other nonprofits who can also serve their needs. 
We'll only go to the catastrophic scenario of technology 
answers as required.
    Are we ready? We're on schedule. We're on track with each 
of our short-term critical projects. They will be done in the 
next weeks. But for the longer term, we have a long way to go. 
We're undertaking an organizational change in how we approach 
partnerships. Our local chapters have been asked to reach out 
to new partners, organizations that aren't usually in the 
community's disaster response, organizations that can help the 
community serve people who have been hard to reach in the past, 
people who served the diverse community well.
    Again, we're looking for where do people go in non-disaster 
time for assistance, and how does the Red Cross step up to the 
role of bringing them into the community's disaster response, 
and very significantly, how do we resource them to do that, and 
how do we give them access to our supplies ahead of time?
    In closing, can we be even more ready this hurricane 
season? Yes, by a lot. Will we be where we ultimately need to 
be? Just as Mr. Foresman said from FEMA, no, we need to keep 
getting better.
    And I thank you for this opportunity to share, and I would 
appreciate the chance to answer any questions you might have.
    [The prepared statement of Mr. Becker follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Thank you very much.
    Ms. McGinnis, Thanks for being with us.

                 STATEMENT OF PATRICIA McGINNIS

    Ms. McGinnis. Thank you, Mr. Chairman, and members of the 
committee. The Council for Excellence in Government, my 
organization, is a nonpartisan, nonprofit organization that 
focuses on three things: improving the performance of 
Government, building public-private partnerships, as Ms. 
Donahue spoke about, and engaging the public to improve 
Government results and make Government more accountable.
    Over the past 3 years we have focused on homeland security 
and emergency preparedness as a key challenge that really draws 
all of our goals together in one place. We've worked in 
partnership with public, private, academic and civic leaders, 
and the way we've done this is through first a series of town 
hall meetings around the country, and public polling to find 
out what the public wants and needs in terms of emergency 
preparedness and homeland security, and then we brought public 
and private sector leaders together, and experts, to take that 
public agenda and turn it into recommendations that we 
published in a report in 2004.
    One of the things that we heard over and over again was the 
absence and need for critical benchmarks of how ready are we, 
how prepared are we? We really can't answer that question very 
well now, and I know it was asked of the last panel. And the 
answers, unfortunately, were somewhat anecdotal because we 
don't really know.
    So the effort now is focused on preparing the public, 
metrics, metrics, metrics, really focusing on how to measure 
readiness, and regional coordination. And I think this regional 
approach holds a lot of promise for getting better in terms of 
preparedness.
    One of our major initiatives, with support from the Sloan 
Foundation, is creating a Public Readiness Index that we're 
doing again in partnership with the American Red Cross, with 
the Department of Homeland Security, with State and local 
officials and emergency managers. The idea is--PRI, we call 
it--that this is like the Consumer Confidence Index. It is a 
survey-based tool that would tell a community or a metropolitan 
area or a State or a region or even at the national level how 
prepared individuals and families are. I think the main 
application will be at the local level and at the regional 
level.
    The survey that we've developed, it's a 10-minute survey, 
which will ultimately be boiled down to an index, like the 
Consumer Confidence Index, and just include a few questions so 
it could be used anywhere to track progress and establish a 
baseline. It's being pilot-tested nationally and in four 
metropolitan areas right now, Miami-Dade, New York City, 
Chicago and San Francisco. We'll have the data, we'll have all 
the data by the end of the month, and we'll certainly make it 
available immediately to Miami-Dade and others who can use it 
at the beginning of hurricane season.
    I've looked at where it is now. About half of the surveys 
have been done, and I actually looked at it last night before 
coming here. And if the patterns hold, the information about 
how prepared the public is, is not much different than it was a 
month ago, 6 months ago, or even a year ago. And that, to me, 
is just astounding, given what we all saw in Hurricane Katrina.
    The success of the Public Readiness Index will depend on 
whether it's regularly used at the local, regional, national 
and other levels. So one of the challenges we face now is how 
to institutionalize this, and we would welcome your ideas about 
this, because we plan to release the survey, the index tool, 
and talk about the results of this pilot in the summer, and we 
would like to be able to make a transition to an institutional 
home.
    What have we seen in our work that we think is significant? 
We've seen the same things that the Select Committee saw and 
the House report described, the gaps in information, 
communication and collaboration that Ms. Donahue described.
    One of the features that seems striking to me--and we 
worked very directly with the directors of emergency management 
in seven large at-risk cities--is that--and we saw this in the 
Gulf--many of the necessary working relationships between and 
among the various Government actors and with the private sector 
were simply not established before the emergency. And systems 
are important, communications are important, but relationships 
are at the heart of how it's all going to work.
    Practicing these scenarios and exercises are critically 
important, and I'm so happy to see that they are doing this on 
a regional basis now before hurricane season or as hurricane 
season gets underway. But it's my understanding--and this is a 
little insight we've learned from people all around the 
country--that elected and appointed officials seldom 
participate in these exercises. And even in Hurricane Pam 
exercise, the mayor, the Governor, the director of FEMA, the 
Secretary of DHS, not present. So when you actually have an 
emergency happen and the key decisionmakers really haven't been 
part of this kind of exercise and working together, I think you 
really see what can happen. So that's an insight that I think 
can be corrected and I think in these regional exercises is 
being corrected.
    Another tremendous gap--and I mentioned it before--is that 
the American people are still not prepared and not motivated to 
take steps to prepare themselves and their families. We 
conducted polls before and after Katrina, after Katrina in 
partnership with the American Red Cross. And I'm not going to 
go through the data because I've given it to you in the 
testimony, and I think you've seen this data or other similar 
data. And the fact is, most people are not prepared, they're 
not more prepared after Katrina than before Katrina. 
Astoundingly, in terms of having a family communication plan, 
which is so basic--how would I communicate with my family in an 
emergency--the numbers actually went down after Katrina. The 
supply kit issue actually stayed the same. We saw some increase 
in these in the southeast, but really, no place else.
    Why don't people prepare? That's the question. And we don't 
have the answer, but we do have some insights from the 
research. Most people think this will not happen to me, no 
matter where they live. There's something about this American 
optimism that causes people to think it won't happen to me or 
my family. That's the No. 1 reason for not preparing.
    Another significant reason is, I don't know what to do to 
prepare, and I think that is--both of those, hopefully, are 
correctable with the right motivation and the right 
information. So to create the culture of preparedness for the 
public, we need a concerted effort to inform and motivate them. 
We need to know what the right messages are, who the right 
messengers are, and how to distribute those messages. This 
should be a large-scale well-funded campaign across the country 
that is consistent and synchronized among different localities 
and States, and at the Federal level.
    If you look at all the different campaigns now, the Ready 
campaign, the Red Cross's campaign, New York City, the State of 
Louisiana, I mean you could go to Web sites for hours and 
hours, and you would see that they're not consistent, they're 
not synchronized, they're not co-branded, and it takes many 
clicks, if you're on a Web site, to find out exactly what you 
should do, so you can understand why the public is confused. I 
just looked at the new Web site for pandemic flu, which is 
another part of the whole emergency scenario, and it's not 
connected to ready.gov or really connected to any of these 
emergency preparedness sites yet.
    The right messengers. We do have some insights about how 
effective children can be as motivators, and we've seen that in 
other campaigns around seat belts and recycling and fire 
protection. So we need to embrace that, and work through the 
schools and other ways of reaching children who can motivate 
their parents to take the steps they need.
    Another very effective messenger would be employers. 
Employers who do have emergency plans in the workplace, they 
need to be revisited, they need to be improved, but they also 
need to connect those workplace plans with what the families 
and individuals who work there are doing at home and outside 
the workplace, or else the workplace plans certainly won't 
work. So that's another possibility.
    Faith-based organizations and other organizations in 
communities that are trusted. Multiple media is needed to 
communicate these messages, not just Web sites and PSAs. I 
would ask anybody in this room who has seen on their television 
set one of these PSAs? I haven't. And I'm very aware of all of 
them and all of this campaigning. So we need to be serious, and 
take this to radio and television and other methods of 
distribution, and actually pay for it, I think. I don't think 
we can count on, you know, pro bono PSAs to do this job.
    So we need to make a concerted effort, and we need to fund 
it. And this is not a skill set of most Government agencies, so 
recognize that and be creative about investing in ways that we 
can bring this together and reach the American people 
effectively.
    Second, in terms of moving forward, focus on metrics. We've 
worked to provide this Public Readiness Index, which we hope 
will be used. We think that the same should be done in other 
areas, business readiness indices. There should be readiness 
indices for local, State and Federal Government, and schools 
and other institutions. There are metrics out there, but 
they're multiple, they're complex, and they're not boiled down 
in a way that is accessible to the public or others who are 
leaders in this enterprise. So focusing on understandable, 
accessible, usable metrics.
    And then finally, the regional approach that I mentioned 
before, the threat, consequences and resources needed to 
address any major emergency go far beyond any local or State 
boundaries. And so bringing people together on a regional 
basis, public and private sector leaders, to focus on how they 
can coordinate together in terms of the emergency planning, the 
metrics that they choose to use, which can be consistent across 
the region, commit to joint training and exercises on a regular 
basis, and plans to achieve and use--and this requires some 
decision protocols and governance--the interoperable voice, 
video and data communications that are being developed. It's 
not just about hardware. Expedited and accountable crisis 
procurement processes can be developed ahead of time for 
regions, coordinated emergency financial plans, and then the 
public messaging and campaigns. If this were done on a regional 
basis, I think it would have a lot more effect.
    Unfortunately, the funding doesn't flow that way and 
there's not much incentive for collaboration, sharing of 
resources ahead of time, getting these things in place ahead of 
time. So I think that's an issue that needs to address.
    Thank you very much for inviting me.
    [The prepared statement of Ms. McGinnis follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Let me thank all of you for being here. 
At last week's hurricane preparedness exercise in New Orleans--
I am going to address this to Ms. Donahue--representatives from 
the private sector were disappointed that they spent much of 
their time in breakout sessions talking with each other with 
other private sector representatives rather than with State and 
Federal officials. I understand the U.S. Chamber had personnel 
in New Orleans at these meetings. Do you know, has the Chamber 
participated in other training sessions?
    Ms. Donahue. The Chamber has been active and involved in 
training sessions and seminars, conferences, to address 
emergency preparedness for the next hurricane season, as well 
as any disaster that takes place, and had an active role in New 
Orleans and will continue to have an active role in New 
Orleans.
    Chairman Tom Davis. What has your experience been with 
these? Are they helpful, or could they be better organized, and 
do you think we could utilize your resources better?
    Ms. Donahue. I'm sorry. Say the last part again?
    Chairman Tom Davis. What's your experience with these been? 
Could we better utilize your resources? I mean, have they been 
useful to you, think they could have been better planned?
    Ms. Donahue. I think they're useful. I just think it shows 
that the public-private partnership needs work, and we need to 
encourage the development of more private-public partnership.
    Chairman Tom Davis. Can you think of any specific 
improvements that you would recommend to better integrate the 
private sector on the front end of disaster planning?
    Ms. Donahue. Part of my recommendations, as far as part of 
our recommendations as far as sharing information, having a 
single source of information shared with the private sector, 
including the private sector in planning sessions, perhaps 
making it mandatory that the States include the private sector 
in planning sessions in the form of DHS funding being 
contingent upon that participation.
    Chairman Tom Davis. There is a private sector office at 
DHS. Are you familiar with it?
    Ms. Donahue. Yes, sir.
    Chairman Tom Davis. How does that work?
    Ms. Donahue. We have worked closely with the private sector 
office of DHS since post-Katrina. They came in on the ground 
and held sessions in New Orleans to help people recover, help 
businesses get back, very focused on the private sector. I 
wasn't personally aware of them prior to that time, but was 
very impressed with what they were able to do post.
    Chairman Tom Davis. The issue of credentialing medical and 
private sector first responders has been brought up several 
times at the tabletop exercises last week. A FEMA 
representative said it was up to each State to determine if it 
wants a standardized system that works with the local and 
Federal Government. You said FEMA has a ``you tell us what kind 
of credentialing system you want and we will work with you to 
build an approach.'' How is the Federal Government, 
particularly DHS and HHS, coordinating with State and local 
governments, as well as the private sector to ensure first 
responders are given credentials that are easily identifiable 
and acceptable? The Red Cross as well.
    Mr. Becker. Our own organization experience is that the 
credentialing system that we have for our own people is 
recognized by the other first response community, so in a lot 
of ways it is easier for us to be where we need to be when we 
need to be there. But the point that you're making is a very 
valid one, because the first response community often needs to 
engage the for-profit sector. One of our biggest experiences in 
Katrina last fall was when the supply chain and when the 
Federal structure had difficulties in delivering, there wasn't 
anything we couldn't do with the for-profit sector, but we had 
to be the ones that were actually on the scene on the ground in 
too many cases because of the security concerns, so the 
credentialing is a key issue.
    Chairman Tom Davis. Well, in the course of the Select 
Committee's work in looking at Katrina, the Red Cross provided 
documents that demonstrate that much of what was requested by 
the Red Cross through FEMA went unmet, that they were never 
able to satisfy what you would ask for.
    Going forward, what will the Red Cross do differently, 
knowing that FEMA may not agree with your estimates or need for 
ice, food, water or other emergency supplies, and to what 
extent do you have to work with FEMA to get what you need?
    Mr. Becker. I think there are two approaches to this. The 
first is working very closely with FEMA, as they improve their 
systems, and we have a great deal of confidence in their 
ability as we go forward.
    Having said that, that's why we have prepositioned what 
we've done, and in some cases there's redundancy there, but we 
felt the need to put in the 6 million meals ready to eat, to go 
ahead and have a half million cots, a half million blankets. 
We've gone with a robust $80 million prepositioning because we 
don't want to be in that situation again where we put in 
requests and aren't able to see them delivered.
    Chairman Tom Davis. Pat, in May 2004, the Council released 
a report containing over 50 recommendations to improve 
preparedness and response, as you noted. What progress have you 
seen implementing these recommendations? What do you see 
easiest to get done, toughest to get done? In your testimony 
you said there remains--I think you said opportunities for 
improvement in coordination and collaboration among the various 
levels of Government. Do you want to give some examples of what 
can be done to achieve this?
    Ms. McGinnis. The recommendations, we were very pleased 
when we made them, that they were well accepted and embraced 
really by the Government leaders and private sector leaders who 
were part of building them. What I would say about them is that 
they have just simply not been fully implemented, and some of 
the key recommendations would be around interoperable 
communications, which interestingly, the public saw as a big 
issue too. I think that was surprising to all that were in the 
town hall meetings.
    A lot of hardware has been purchased, and we've made 
progress, but in order to have these interoperable 
communications really work, there need to be the protocols, the 
communication protocols, a kind of governance structure which 
has not yet been developed to a large extent, so I think that's 
a huge issue.
    In terms of public preparedness, we found tremendous gaps 
in communication and understanding on the part of the public, 
and the reason that we moved toward developing this Public 
Readiness Index was because we felt strongly that, you know, to 
offer some leverage, some ways for people at the local, State 
and Federal level to see what the problems were and to provide 
the motivation to do a better job communicating. I think 
everybody wants to do the right thing, there's no question 
about that. And everybody's working hard, I have no criticism 
of that. But we have not closed that communication gap at all, 
and so I think we need to be serious about doing our homework, 
trying some different things, evaluating them, and 
investigating some money in improving the communications.
    The collaboration among Government at different levels, 
public health, law enforcement, fire, the emergency management, 
and including the private sector, I think there is more 
collaboration, but it's not systematic enough. Again, we're 
looking at, you know, this notion on a regional basis, if you 
could get people to commit to doing things on a joint basis, 
establishing agreements in advance, those kinds of outcomes, 
you know, that would be concrete progress toward what we're 
trying to accomplish.
    Chairman Tom Davis. Mr. Taylor.
    Mr. Taylor. Ms. McGinnis, I have to admit I found it 
interesting that an organization that would be called the 
Council for Excellence in Government didn't have one critical 
word to say about the way FEMA, for example, the contract for 
the delivery of the trailers with Bechtel, I think a text book 
case of waste in Government, the prearranged contracts on the 
debris removal. Even now, the point I made to Homeland 
Security--and I would imagine Ms. Donahue would be familiar 
with this--how the taxpayer got stuck with the bill for almost 
every insurance claim. The private sector that had $44 billion 
in profits was the one who got to be the judge whether that 
claim was paid by the Federal Flood insurance, you, or by 
Allstate, State Farm and Nationwide, coming out of the 
stockholders.
    I mean any objective group that looked at the financial 
dealings after the storm has got to walk away shaking their 
heads, saying there has got to be a better way. And what I 
don't see, what I didn't hear from any of the panelists today, 
was how they are going to do a better job next season.
    Now, the one star on that first panel was the National 
Guard, but as far as the other agencies, you know, I, for one, 
wasn't all that pleased.
    Mr. Becker, in the case of the Red Cross, let me begin by 
saying I am very grateful for the help we got, and I hope in no 
way we ever let you think anything other than that. But I think 
the people who contribute to your organization also want to 
know that it is going to the truly needy and not folks who are 
gaming the system. I think one of the ways that any objective 
person would have to admit the system was gamed, that there 
were actually two of us organizers who were taking people from 
parish to parish, county to county. That is not what you wanted 
to see. It is certainly not what I wanted to see, and I can 
assure you, it is not what the folks who contribute to your 
great organization wanted to see. And believe me, no one has to 
remind me how horrible communications were, and I commend both 
of you ladies for talking about the importance of families 
having some way of getting in touch with each other.
    But, you know, after 2, 3 weeks, the cell towers were back 
up, some of the phone lines were back up, and I just have to 
believe that your agency could have established some sort of 
registry to where when a person showed up, you could find out 
if they had already filed a claim in Plaquemines Parish and 
Orleans Parish, and Jackson County and Harrison County and 
Hancock County. Again, in trying to be fair to the people who 
contribute to you, but above all, being fair to those people 
who tried to play by the rules, who felt like in many instances 
they were saps because they didn't go milk the system. So since 
we have you, since we are talking about next season, what if 
anything is your organization doing to address that for next 
time?
    And, again, getting back to the name of your organization, 
I would certainly hope that someone out there would be the 
honest broker in that, yes, we need to provide these services. 
That is what nations are all about, but we also have to do them 
in a cost effective manner.
    Ms. McGinnis. If I could start, and then Joe.
    Mr. Taylor. Yes, sure.
    Ms. McGinnis. The reason--what I have focused on here is 
the future. If you ask me to characterize the preparedness and 
response to Katrina, I have said and would say, it was a 
failure of leadership at every level, and a failure of 
execution. I mean we could spend hours talking about that, and 
I think all of us have, you know, are absolutely clear about 
learning from those lessons and not repeating those mistakes, 
and we are simply, you know, given sort of where we sit in the 
scheme of things, trying to find ways we can help improve the 
situation in the future for the public, for Government, and 
frankly, not just to focus on hurricanes, but to keep an eye on 
all hazards, because fighting the last battle is a risk that I 
think we--it's a danger now.
    So, you know, we're simply looking forward and trying to be 
constructive at this point, rather than criticizing.
    Mr. Taylor. And that is fair, but I would also remind you, 
a lot of the committees--well, I am not even a member of this 
committee; Mr. Davis was kind enough to let me visit because 
the storm hit my area. But since I serve on Armed Services, and 
I have sat through 16 years of hearings where the generals and 
the admirals are paid to scare the dickens out of us, I have to 
tell you in the aftermath of Katrina, I am looking and saying 
to myself, this is what an attack on the United States is going 
to look like. We are not going to be able to talk to each 
other. There is going to be no electricity. There will be no 
running water. You are lucky if you can find a Portolet.
    Our first responders are going to have torn loyalties. Do 
they go take care of their family, or do they do their job? And 
in the case of Mississippi, I cannot brag on our first 
responders enough because they did their job in every instance. 
But it is going to look a lot like that. It is going to have 
something called probably electromagnetic pulse, which is going 
to fry everything electrical, so cars don't start, generators 
don't run, you can't talk to anyone on the phone. There are no 
ATMs, there are no scanners. You are back to sending messages 
and notes by a runner who can somehow get a vehicle to run, 
keeping in mind that the starter has probably been fried. Any 
good potential foe of this Nation is going to blow the levees 
in New Orleans. Ms. Donahue and I could do it tonight with a 
gasoline-powered auger and a couple of sticks of dynamite. So 
we are going to see a lot of what we saw if there is an attack 
on--when there is an attack on homeland, or even if it is an 
act of terror or if it's state sponsored.
    So, again, I would--hopefully as a friendly criticism--I, 
for one, think that--I would hope that there are more agencies 
out there holding FEMA's feet to the fire. I am a fan of the 
Corps, holding the Corps' feet to the fire on every dime that 
we spent to make sure that it was well spent. And, again, I 
thought the name of your organization kind of would lend me to 
think that is what you all are all about.
    Mr. Becker. Mr. Chairman, if I----
    Chairman Tom Davis. Please, go ahead.
    Mr. Becker. I'm sorry, Mr. Chair. Mr. Taylor asked a 
question about people gaming our system. Would I have time to 
address that, please?
    Mr. Taylor. I would hope so.
    Mr. Becker. Thank you for asking that, and at the very 
beginning of Katrina, we recognized that our current way of 
doing business wasn't going to work. A high school gym with a 
volunteer in it to give people assistance, we'd never get it 
out there. We had to create an entirely new way. We brought 
together all the technology companies, gave them days and 
created what we ended up doing. But what we were balancing 
there was controls and speed of service, and we had to have a 
bias toward the speed of service.
    What we've done since then are two things, looking back and 
looking forward. We knew that people might be able to game the 
system, but we also knew that we could figure out who they 
were. And out of the 1.3 million families that we helped, about 
7,000 families gamed the system. And we've been able to go 
back, and we have had great success working with law 
enforcement to lower the threshold on what would be 
prosecutable so that we could go after these families. And we 
have a whole team of people working with law enforcement to go 
back, and we have recovered large sums of money from people who 
gamed the system.
    Looking forward, the challenge was, how do we--now that 
we've learned what we've learned, how do we create the system 
that has those controls from the beginning? And that was what I 
was describing earlier, were we now going to have a system 
where we can do 2 million families, we can do 100,000 families 
a day through a call center mechanism that has the appropriate 
controls from the beginning? You call the call center, they 
have a list of questions that you have to answer correctly to 
prove who you are, not just where do you live now, but where 
did you live before that, or some very personal question where 
they would have that information, use specific vendors for 
that. And out of that come a set of controls that we know who 
we're giving money to, and we verify that they have disaster 
caused need.
    What we did last year was far less than perfect. The cost 
of serving so many people as quickly as we did was not having 
all the controls we wanted to have in place. What we'll have 
for this fall, it will have a much higher level of control. 
Will it be perfect? No. We're still working on getting all of 
the controls, but we feel a lot better about where we'll be in 
the next catastrophic disaster.
    Mr. Taylor. Thank you.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    After Katrina, Carnival Cruise Lines made some of their 
vessels available to house first responders. They had never 
previously done this before. They hadn't put it in their 
business plan. In fact, they had fully leased these cruise 
lines to other customers. But when they were asked by the 
Federal officials, they were willing to make their ships 
available at some loss of goodwill to customers who had come in 
and they had to cancel reservations.
    Almost immediately after entering into that arrangement, 
they got criticized for charging too much, even though this was 
done competitively, and this was put on the street for anybody 
to respond. What do we do to improve the contracting 
environment for companies that in good faith offer their goods 
and services on short notice to respond to an emergency, only 
to get punched in the face over it?
    Ms. Donahue. It's unfortunate that's the case. And as Mr. 
Becker was saying about American Red Cross, it was wonderful 
that American Red cross got money into the hands of individuals 
as quickly as they did, and yet, got criticized for some of the 
abuse of the system. I think we go back to Katrina and Rita 
being a learning experience for us, a wake-up call for this 
country, and hopefully, lessons learned in the whole process. 
It shows the need for all of us to rethink our planning on 
every level of the Government. I don't know how to answer that 
other than to say that Carnival Cruise Line, bless them for 
doing what they did.
    I think Katrina being the worst disaster in this Nation's 
history, left everybody gasping and not knowing how to handle 
the number of people coming into them and the need for housing 
along the coast. It was a quick solution. It was an easy 
solution, a very generous solution on their part, and you know, 
you're going to have criticism of those systems, but it just 
makes us know now that the private and public sector need to 
come together and think about the plan for the future, and 
learn from those mistakes, hopefully.
    Chairman Tom Davis. We looked at the numbers on this. I 
mean there is no evidence that Carnival made a nickel more than 
they would have made had they not bid on this thing and not 
made their ships available. They just tried to be--said, can 
you make us even, and we will give you a commodity and a 
service that you wouldn't otherwise be able to get. And the 
congressional critics jumped on the thing right away for 
various reasons. Contracting is never pretty in an emergency 
situation. I think we all understand that. But you, when you 
have an emergency, you want to get the best goods there as 
quickly as you can get it, and sometimes you ask the questions 
later, and I just think sometimes we are our own worst enemies.
    Ms. Donahue. What Carnival doesn't get the credit for is 
the fact that a lot of the people that were put up in the 
Carnival ships in New Orleans were actually the policemen, the 
firemen, the services that we desperately needed to keep the 
city safe and under control. God bless them for having that 
there for us.
    Mr. Becker. Mr. Chairman.
    Chairman Tom Davis. Yes?
    Mr. Becker. I think part of a solution here is our ability 
as a country to imagine scenarios, and our ability, for 
example, in our organization to sit down with the right 
businesses ahead of time and preplan different scenarios, and 
preplan what the needs would be, and that's what we've been 
trying to do for the last 7 or 8 months, is work with different 
companies so that you can think that through ahead of time. 
We--not Red Cross--but you might need a cruise line, but what 
would that look like? And I think as a country we've got a long 
way to go in just imagining----
    Chairman Tom Davis. Yes, nobody ever thought of what you 
needed before.
    Ms. Donahue. It's made everybody think outside of the box 
in this situation.
    Chairman Tom Davis. The box has gotten bigger, hasn't it?
    Ms. Donahue. The box has gotten a lot bigger.
    Mr. Taylor. Mr. Chairman, if I may?
    Chairman Tom Davis. Mr. Taylor and then Mr. Shays.
    Mr. Taylor. But to that point, we have leased cruise ships 
on several occasions, when we had a refugee overflow at 
Guantanamo. We have leased very large quarters barges during 
the first Gulf war in places like Saudi Arabia, so we as a 
Nation can't pretend that this is the first time we ever did 
this, and as a matter of fact, early in this administration, 
two cruise ships that were under construction in south 
Mississippi, the guy who was supposed to sponsor it backed out 
after September 11th. The Nation canceled the contract for that 
instead of finishing it. We sold those hulls for about a penny 
on a dollar. And if we had finished those ships, what we paid 
in rent to Carnival, we could have paid for the ships and had 
them available for next time.
    So, again, we as a Nation weren't totally surprised, and, 
yes, I think we could have done a heck of a lot better on that. 
And remember, Carnival did pay to run the generators, but they 
did not have to fuel those very expensive ships at sea, and 
that's a huge savings.
    Chairman Tom Davis. Thank you.
    Mr. Shays.
    Mr. Shays. I thank you very much, Mr. Chairman.
    The bottom line to my feeling about what happened was that 
it was so overwhelming, that the storm was of biblical 
proportion, that it was overwhelming, and you had craziness 
like a mayor who was saying publicly that, you know, there were 
murders taking place, and gangs roving, and rapes, and so on. 
When we unraveled it all, it was horrible that we weren't able 
to get to people in time, but it was nothing like what was 
said. But we saw tremendous incompetence.
    Yet I marvel at how many people, particularly in 
Mississippi, were saved. I mean, when I saw storm damage 10 
miles in, water 20 feet high, I saw what it looked like from 
the air, when we were going over Mississippi, a tornado that 
wasn't a quarter mile long and two football fields wide. It was 
5 miles wide, and it was 90 miles long. It was just literally 
unbelievable to behold.
    So, obviously, some people get it. They must be trained. In 
Mississippi they must be really experienced at this stuff. What 
was the difference, in your judgment, between Mississippi and 
Louisiana? Was it that everyone just never had to get out 
because they were protected by the dikes and so on? What is 
your sense of it? Why was Mississippi so much better off 
ultimately than Louisiana?
    Ms. Donahue. As a Louisianan, can I answer that, please?
    Mr. Shays. Sure.
    Ms. Donahue. The situation in Louisiana was certainly 
different from what Mississippi experienced, and you said it in 
that the flood wall----
    Mr. Shays. Can I ask you to speak a little louder?
    Ms. Donahue. The experience in Mississippi and Louisiana 
were somewhat different in that New Orleans had actually 
escaped the bullet of the storm until the levees broke down, 
and it was a different situation completely in that the storm 
surge that came in and hit Mississippi flattened Mississippi. 
There was no question as to whether a house was salvageable or 
not because the house was nonexistent. All that was left was a 
slab. Is that right, Congressman? A different situation in New 
Orleans.
    Mr. Shays. You are talking about the clean-up issue. I am 
talking about people just seemed to anticipate the storm better 
in Mississippi than Louisiana, and I think it really relates to 
the fact the dikes in the past have held, so, you know, they 
were protected. But I felt that elected officials, be they 
Republican or Democrats, just had a different attitude in 
Mississippi than they had in Louisiana. I mean it was like two 
very different cultures when I spoke with folks. I mean when we 
went to Mississippi, one, you don't call them counties. What do 
you call them?
    Mr. Taylor. Counties. Louisiana has parishes.
    Mr. Shays. Parishes. Well, OK, counties in Mississippi. We 
had one county executive--at least that is what we call them up 
in our area--he said, ``We had 28 policemen and they all lost 
their home. They showed up for work the next day. We had 35 
firemen, 27 lost their home, and they all showed up for work 
the next day.''
    In Louisiana, I was next to a police officer on Saturday 
after the Tuesday storm in New Orleans, and he wouldn't answer 
any questions I asked and said he wasn't allowed to talk with 
me, and he snickered at me. And then I had someone from New 
York who had brought hundreds of firemen, and he said, you 
know, a lot of the firemen simply weren't there in Louisiana. 
They just disappeared.
    It is just amazing to me just in two different States I 
could see such a different feeling. Now, was it just an unusual 
day of my life that I just got a distorted view, or was it just 
a different way of trying to cope?
    Anybody have an answer?
    Mr. Becker. I would suggest, in agreement with Ms. Donahue, 
that they were almost two very different events when you look 
at what happened. But by having said that, I would also suggest 
we work with local government, we work with State Government, 
we work with the Federal Government, quite closely. It was a 
very different decisionmaking apparatus. It was a different 
environment in decisionmaking between the States, and it played 
out that way.
    Ms. Donahue. And I think a lot of what you're saying goes 
back to what was in the media and not actually what you saw on 
the ground, because for every terrible story you tell about one 
person's experience, I'll tell you 100 about the wonderful 
people who stepped to the plate, the neighborhoods who came 
together and helped each other get out of the situation that 
they were in. So I think a lot of it is just the public 
perceptions.
    Mr. Shays. So once they got into that story in New Orleans 
that was negative, it was hard for them to also tell positive 
stories is what I think you're saying to me. Is that right? OK.
    Let me just end by asking you this. What did you react most 
favorably and what did you--all three of you--react most 
disfavorably in the previous panel discussion? Was there 
anything that you disagreed with, anything like, yeah, sure, 
I'll believe it when I see it kind of reaction, or were you not 
in your head saying, you know, I think they are pretty accurate 
in their description?
    Mr. Becker. I'll lead. My observation--and through the 
panel, and it's from working with quite a few of those people--
I'm most impressed with the quality of the leadership that's in 
place and the caliber of the people that are now entrusted with 
some very important responsibilities.
    Mr. Shays. At all levels of the Government?
    Mr. Becker. I'm sorry. Speaking particularly with Homeland 
Security and with FEMA.
    Mr. Shays. OK.
    Mr. Becker. I'm not sure it's a disappointment as much as 
we all have to just deliver. We can make promises. We can make 
commitments. We've spent a lot of time and a lot of attention 
building systems and building all new things, but the bottom 
line is we all have to deliver.
    Mr. Shays. And that says to me that you want to make sure 
that people show initiative instead of standing on the sideline 
waiting for someone else to act. That's kind of the answer for 
me on that one.
    Mr. Becker. And I have a high degree of confidence that the 
leadership team in FEMA will behave in that manner.
    Mr. Shays. I am just going to finish up real quick because 
I know we need to get on our way here, but, Ms. McGinnis?
    Ms. McGinnis. I would say on the positive side I think the 
new Under Secretary for preparedness at DHS, George Foresman, 
is just--I mean the experience that he brings and the 
commitment, and the sort of collaborative style I think is a 
real plus.
    On the negative side--and this is not to say that I think 
all of this could be in place in such a short time--but when 
the question is asked how ready we are, we really don't know 
because we don't have adequate indicators of how much progress 
we've made on the important issues. It's all anecdotal. So I 
think that's my disappointment.
    Mr. Shays. Why don't you end up, Ms. Donahue?
    Ms. Donahue. The Coast Guard, National Guard, God bless 
them and hats off to them because they did a fabulous job, and 
you heard in their testimony they truly did a fabulous job. I 
think all of the other departments need work. FEMA needs work. 
SBA needs work. DHS, we're working closely with. It's just been 
a learning experience. Hopefully, this never happens to us 
again, and hopefully we'll come out with it with some lessons 
learned for all departments.
    Mr. Shays. Thank you.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    I want to just thank this panel. It has been very, very 
helpful to us, and we appreciate your continued work in this 
area. It has been a very helpful hearing to us. And, of course, 
continue to prod the Government to make appropriate changes so 
we will be ready for the coming hurricane season.
    No other questions from the Members, so the hearing is 
adjourned. Thank you.
    [Whereupon, at 4:37 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
